<html>
<title> - CYBER SECURITY CHALLENGES AT THE DEPARTMENT OF ENERGY HEARING BEFORE THE SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION JUNE 9, 2006 Serial No. 109-107 Printed for the use of the Committee on Energy and Commerce Available via the World Wide Web: http://www.access.gpo.gov/congress/house U.S. GOVERNMENT PRINTING OFFICE 29-892 WASHINGTON : 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    CYBER SECURITY CHALLENGES AT THE 
                          DEPARTMENT OF ENERGY


                               HEARING

                             BEFORE THE

               SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                               OF THE 

                      COMMITTEE ON ENERGY AND 
                              COMMERCE

                      HOUSE OF REPRESENTATIVES


                     ONE HUNDRED NINTH CONGRESS

                           SECOND SESSION


                            JUNE 9, 2006

                         Serial No. 109-107

        Printed for the use of the Committee on Energy and Commerce





Available via the World Wide Web:  http://www.access.gpo.gov/congress/house


                    U.S. GOVERNMENT PRINTING OFFICE
29-892                      WASHINGTON : 2006
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001


                   COMMITTEE ON ENERGY AND COMMERCE
                      JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas                      JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida                  Ranking Member
  Vice Chairman                           HENRY A. WAXMAN, California
FRED UPTON, Michigan                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                    RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                     EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                      FRANK PALLONE, JR., New Jersey
ED WHITFIELD, Kentucky                    SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia                  BART GORDON, Tennessee
BARBARA CUBIN, Wyoming                    BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois                    ANNA G. ESHOO, California
HEATHER WILSON, New Mexico                BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona                  ELIOT L. ENGEL, New York
CHARLES W. "CHIP" PICKERING,  Mississippi ALBERT R. WYNN, Maryland
  Vice Chairman                           GENE GREEN, Texas
VITO FOSSELLA, New York                   TED STRICKLAND, Ohio
ROY BLUNT, Missouri                       DIANA DEGETTE, Colorado
STEVE BUYER, Indiana                      LOIS CAPPS, California
GEORGE RADANOVICH, California             MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire            TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania             JIM DAVIS, Florida
MARY BONO, California                     JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                       HILDA L. SOLIS, California
LEE TERRY, Nebraska                       CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey                 JAY INSLEE, Washington
MIKE ROGERS, Michigan                     TAMMY BALDWIN, Wisconsin
C.L. "BUTCH" OTTER, Idaho                 MIKE ROSS, Arkansas                       
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee               

                    BUD ALBRIGHT, Staff Director
                   DAVID CAVICKE, General Counsel
     REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


               SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS
ED WHITFIELD, Kentucky, Chairman          BART STUPAK, Michigan
CLIFF STEARNS, Florida                      Ranking Member
CHARLES W. "CHIP" PICKERING,  Mississippi DIANA DEGETTE, Colorado
CHARLES F. BASS, New Hampshire            JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                       JAY INSLEE, Washington
MIKE FERGUSON, New Jersey                 TAMMY BALDWIN, Wisconsin
MICHAEL C. BURGESS, Texas                 HENRY A. WAXMAN, California
MARSHA BLACKBURN, Tennessee               JOHN D. DINGELL, Michigan
JOE BARTON, Texas                           (EX OFFICIO)                            
  (EX OFFICIO)


                                CONTENTS


                                                                     Page
Testimony of:
     Friedman, Hon. Gregory, Inspector General, U.S. Department of 
          Energy	                                              12
     Podonsky, Glenn S., Director, Office of Security and 
          Safety Performance Assessment, U.S. Department of Energy    19
     Pyke, Jr., Thomas N., Chief Information Officer, U.S. 
          Department of Energy	                                      48
     Brooks, Hon. Linton, Under Secretary of Energy for 
          Nuclear Security and Administrator, National Nuclear 
          Security Administration, U.S. Department of Energy	      52
     Garman, Hon. David K, Under Secretary for Energy, 
          Science, and Environment, U.S. Department of Energy	      56
Additional material submitted for the record:
     Pyke, Jr., Thomas N., Chief Information Officer, U.S. 
          Department of Energy, response for the record	              73
     Podonsky, Glenn S., Director, Office of Security and 
          Safety Performance Assessment, U.S. Department of 
          Energy, response for the record	                      74
     Friedman, Hon. Gregory, Inspector General, U.S. 
          Department of Energy, response for the record	              76

                      CYBER SECURITY CHALLENGES AT THE 
                             DEPARTMENT OF ENERGY


                             FRIDAY, JUNE 9, 2006

                           HOUSE OF REPRESENTATIVES,
                      COMMITTEE ON ENERGY AND COMMERCE,
               SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS,
                                                          Washington, DC.


        The subcommittee met, pursuant to notice, at 10:42 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield [Chairman] presiding.
        Present:  Representatives Whitfield, Bass, Walden, Burgess, 
Blackburn, Barton (Ex Officio), Stupak, DeGette, and Inslee. 
        Staff Present:  Mark Paoletta, Chief Counsel for Oversight and 
Investigations; Dwight Cates, Professional Staff Member; Tom 
Feddo, Counsel; Matt Johnson, Legislative Clerk; and Chris 
Knauer, Minority Investigator.
        MR. WHITFIELD.  This meeting will come to order.  
        Once again, I apologize to you all for the delay, but there were 
a few items that came up at the last minute that we needed to 
discuss.  
        Today, we are going to have a hearing on the review of cyber 
security challenges at the Department of Energy; and today's 
hearing will focus on ongoing challenges to secure DOE's 
unclassified network as well as the Department's efforts to address 
specific cyber security weaknesses that have been identified by the 
Department of Energy Inspector General and the Office of Security 
and Safety Performance Assurance.  
        This is not a new issue for the subcommittee.  In April of 2001, 
this subcommittee held a hearing to review the security of 
government computer systems.  At that hearing, Mr. Glenn 
Podonsky, who is the Director of DOE's Office of Security and 
Safety Performance Assurance, provided a demonstration of cyber 
penetration techniques used to gain access to the DOE unclassified 
network.  
        In the 5 years since that hearing, there has been a worldwide 
surge in the number of identified cyber security vulnerabilities as 
well as a surge in malicious cyber activity designed to exploit 
those vulnerabilities.  In fact, looking back at our April, 2001, 
hearing, I think we could consider that period as the good old days, 
compared to the challenges that we face today.  All indications 
point to a continually evolving cyber threat environment where 
malicious activity will continue to increase in complexity.  
        A recent report from Simtek Corporation points out that 
computers based in the United States account for 31 percent of all 
cyber attacks.  Ranked second is the rapidly increasing cyber threat 
originating from China.  According to a March, 2006, report from 
Simtek, attacks originating in China last year increased by 
153 percent.  According to Simtek, these attacks from China are a 
likely sign that more attackers have become active within the 
country.  
        In response to the growing cyber threat, it is critical that DOE 
develop and maintain a robust cyber security posture to defend 
against unauthorized penetrations into its unclassified network.  A 
comprehensive cyber security effort at DOE is particularly 
challenging due to the large number of systems maintained by the 
Department and their geographical dispersion.  
        In a recent portion, Mr. Podonsky noted that DOE's approach 
to cyber security does not provide the degree of structure, direction 
and management involvement necessary to support effective 
decision making and program implementation.  
        To emphasize this point, last year, Mr. Podonsky conducted an 
unannounced internal red team penetration test that successfully 
gained control of a DOE site network.  From there, the red team 
exploited existing network interconnections to gain control of 
several other DOE site networks.  This internal performance test 
identified previously unsuspected vulnerabilities.  
        In response to these alarming findings, the DOE Office of the 
Chief Information Officer has worked in conjunction with NNSA 
and DOE program officers to develop a revitalization plan to 
revitalize the DOE's cyber security posture.  
        The committee staff has reviewed the Chief Information 
Officer's revitalization plan, and it does appear to be 
comprehensive.  When implemented, the revitalization plan should 
resolve many of the Department's cyber security weaknesses, or at 
least that's our hope.  Unfortunately, based on a recent update from 
the Department, progress on many of the corrective actions in the 
revitalization plan have already fallen behind schedule.  
        Although the unclassified network does not contain classified 
information, it does contain sensitive and confidential information.  
In some cases, important research at the national laboratories are 
initiated and developed on unclassified networks until they reach a 
stage of development that requires them to be classified.  These 
and other sensitive unclassified information require the best 
protection.  
        I would also note that approximately 75 percent of the DOE 
computer systems are actually operated by contractors.  Thus, in 
order to successfully address the Department's cyber security 
challenges, the Department will need to have each of its 
contractors on board.  
        We look forward to hearing today from Mr. Tom Pyke, the 
Department's CIO, as well as Under Secretary Linton Brooks and 
Under Secretary David Garman on the steps they are taking to 
improve cyber security.  
        We plan to conduct as much of this hearing as possible in an 
open public format.  However, we know that at some point we are 
going to move the hearing into Executive Session where we can 
discuss sensitive information.  
        One of the pieces of information that came to our knowledge 
just last night that raises serious concerns for all of the members of 
the subcommittee relates to the fact that the personnel files, 
including Social Security numbers, of 1,500 Federal and contract 
employees at DOE, were exfiltrated by an unknown hacker.  The 
point that really upsets us in the committee about this is that this 
information was known somewhere within the Department of 
Energy 8 months ago and yet, from the information that we have, 
that information was not shared with the Secretary of Energy 
himself, and was not shared with the CIO.  
        Of course, Mr. Brooks will be with us on the second panel, as 
well as others, and we will be asking some questions about this.  
But we are going to have to go into Executive Session to get into 
any detail on that issue because of the classified information.  
        But I do want to just reiterate the fact that this alleged breach 
occurred 8 months ago within the Department of Energy and 
personnel files of 1,500 DOE employees has been obtained by 
some unknown hacker and is of great concern to all of us.  
        With that, I recognize the gentleman from Michigan, Mr. 
Stupak.  
        [The prepared statement of Hon. Ed Whitfield follows:]

PREPARED STATEMENT OF THE HON. ED WHITFIELD, CHAIRMAN, 
SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

        This hearing will come to order.  Today we will review the 
status of cyber security at the Department of Energy and the 
National Nuclear Security Administration.  Today's hearing will 
focus on ongoing challenges to secure DOE's unclassified 
network, as well as the Department's efforts to address specific 
cyber security weaknesses that have been identified by the DOE 
Inspector General and the Office of Security and Safety 
Performance Assurance.
        This is not a new issue for the Subcommittee.  In April of 2001 
this Subcommittee held a hearing to review the security of 
government computer systems.  At that hearing, Mr. Glenn 
Podonsky - who is the Director of DOE's Office of Security and 
Safety Performance Assurance - provided a demonstration of 
cyber-penetration techniques used to gain access to the DOE 
unclassified network.  In the five years since that hearing there has 
been a worldwide surge in the number of identified cyber security 
vulnerabilities as well as a surge in malicious cyber activity 
designed to exploit those vulnerabilities.  In fact, looking back at 
our April 2001 hearing, I think we could consider that period as 
"the good old days" compared to the challenges we face today.
        All indications point to a continually evolving cyber threat 
environment where malicious activity will continue to increase in 
complexity.  A recent report from Symantec Corporation points out 
that computers based in the United States account for 31% of all 
cyber attacks.  Ranked second behind the US is the rapidly 
increasing cyber threat originating from China.   According to a 
March 2006 report from Symantec, attacks originating in China 
last year increased by 153%.  According to Symantec, these attacks 
from China are "likely a sign that more attackers have become 
active within the country."   
        In response to the growing cyber threat, it is critical that DOE 
develop and maintain a robust cyber security posture to defend 
against unauthorized penetrations into its unclassified network.  A 
comprehensive cyber security effort at DOE is particularly 
challenging due to the large number of systems maintained by the 
Department, and their geographical dispersion.  In a recent report, 
Mr. Podonsky noted that DOE's approach to cyber security "does 
not provide the degree of structure, direction, and management 
involvement necessary to support effective decision-making and 
program implementation."
        To emphasize this point, last year Mr. Podonsky conducted an 
unannounced internal "red team" penetration test that successfully 
gained control of a DOE site network.  From there, the red team 
exploited existing network interconnections to gain control of 
several other DOE site networks.  This internal performance test 
identified previously unsuspected vulnerabilities.  
        In response to these alarming findings, the DOE Office of the 
Chief Information Officer has worked in conjunction with NNSA 
and DOE programs offices to develop a "revitalization plan" to 
revitalize the DOE cyber security posture.  The Committee staff 
has reviewed the CIO's revitalization plan, and it appears 
comprehensive.  When implemented, the revitalization plan should 
resolve many of the Department's cyber security weaknesses.  
Unfortunately, based on a recent update from the Department 
progress on many of the corrective actions in the revitalization plan 
have already fallen behind schedule.
        Although the unclassified network does not contain classified 
information, it does contain sensitive and confidential information.  
In some cases important research at the national laboratories are 
initiated and developed on unclassified networks until they reach a 
stage of development that requires them to be classified.  These 
and other sensitive unclassified information require the best 
protection.  I would also note that approximately 75% of DOE's 
computer systems are actually operated by contractors.  Thus, in 
order to successfully address the Department's cyber security 
challenges, the Department will need to have each of its 
contractors on board.  
        I look forward to hearing from Mr. Tom Pyke, the 
Department's Chief Information Officer, as well as Under 
Secretary Linton Brooks and Under Secretary David Garman on 
the steps they are taking to improve cyber security.  
        I plan to conduct as much of this hearing as is possible in an 
open, public format.  However, I expect that at some point we will 
move the hearing into executive session where we can discuss 
sensitive information.  I look forward to hearing from the 
witnesses and I yield back the balance of my time.   

        MR. STUPAK.  Thank you, Mr. Chairman; and thank you for 
holding this hearing.  
        Today's hearing is on a subject that most people don't think 
about and, quite frankly, take for granted.  Nonetheless, the issue 
of cyber security can have profound consequences to the Nation's 
national security if not handled competently and aggressively.  
        The issue of cyber security is a matter that this subcommittee 
has examined for years.  How Federal agencies and departments 
protect sensitive systems and the information they contain from 
malicious hackers or foreign agents is something that we should all 
be concerned about.  
        The Department of Energy has literally hundreds of thousands 
of computers and a myriad of networks that can all serve as 
potential vectors for external threats.  These computers and 
networks, both classified and unclassified, hold very sensitive 
information on a range of issues.  These systems must be protected 
with vigor.  Failure to do so can result in huge losses of critical 
data, including data related to national security.  
        Mr. Chairman, what we will hear today, however, is a mixed 
report card.  On one hand, we will hear that improvements in 
securing this information have been made and continue to be 
made.  However, we will also hear that significant progress is still 
needed on behalf of the DOE Chief Information Office to better 
secure the Department's key systems.  
        The Department of Energy Inspector General and DOE's 
Director of Office of Security and Safety Performance Assurance 
have both found considerable weaknesses in key DOE systems.  
Both of these entities in various audits and red teaming 
examinations have determined as recently as last year that DOE 
systems, particularly those networks which contain unclassified 
information, are entirely too vulnerable.  We will hear from both 
offices that, while DOE strives to close these weaknesses against 
outside threats, more must be done and it must be done soon.  
        Mr. Chairman, I do note that this hearing will be conducted 
partially in open session and partially in closed session.  I support 
this approach because it is only during the closed session that we 
will be able to discuss the details of where DOE has failed to 
secure key systems in the past and where the Department remains 
vulnerable today.  I believe that a vigorous discussion in the closed 
session will underscore what many of us know, which is that 
significantly more attention must be paid to this important area.  
        Mr. Chairman, I do look forward to the testimony from the 
excellent witnesses we have before us today.  I look forward to 
continuing to work with you to explore additional ways to secure 
DOE key information systems.  
        As many have noted in their testimony, the threats of DOE 
information systems have never been greater, and those threats 
continue to grow in sophistication and intensity every day.  I 
concur with those statements based on what I have seen through 
this investigation, and I underscore the need to hold the 
Department accountable in this regard.  
        Mr. Chairman, I look forward to hearing from our witnesses.  
You mentioned about the exfiltrated information, and I look 
forward to going into closed session to discuss it.  I really would 
like to know why it takes 8 to 9 months for this committee, which 
has jurisdiction and has taken a great interest for a number of years 
on this issue, that we once again are about 8 to 9 months behind 
without any proper notification.  
        MR. WHITFIELD.  Thank you, Mr. Stupak.  
        At this time, I recognize the gentleman from Texas, Dr. 
Burgess, for his opening statement.  
        MR. BURGESS.  Thank you, Mr. Chairman.  I will be brief, 
because I am anxious to get to the testimony of the witnesses, and 
much of the information we have had prior to this hearing we only 
got this morning.  
        But we live in a dangerous world, and there are clever enemies 
both within and without our country.  Our national security has 
become the most important issue facing the Nation, and indeed it is 
our most important job here in the United States Congress.  We 
must do everything within our power to ensure that we do not 
become victims of terrorism again.  
        Our committee has a very important responsibility to the 
American public, and I am glad that we are conducting the 
oversight of the nuclear facilities.  As terrorists become more and 
more sophisticated, we must continue to implement and maintain 
comprehensive measures to secure our safety.  
        Mr. Chairman, I welcome the fact that you are holding so much 
of this hearing in open session.  You are to be commended for that.  
I do understand the necessity for holding a portion of this hearing 
in closed session.  
        I am concerned about the reported lack of safety and security 
surrounding some of our nuclear facilities.  As we have recently 
learned, there have been instances where cyber attacks could have 
been avoided if simple security controls such as security patches 
and passwords had been implemented.  
        While many cyber problems cannot be cured by a patch or 
password, it's astonishing the agency responsible for so many of 
our national security measures could have overlooked the simplest 
of solutions.  It is no wonder that Inspector General Gregory 
Friedman has given the Department of Energy an unsatisfactory 
assessment during its recent evaluation under the Federal 
Information Security Management Act.  
        I am encouraged by the assessment, I am encouraged by the 
Department of Energy's revitalization plan, and Mr. Stupak 
pointed out that is part of a mixed report card, but I am encouraged 
by the revitalization plan, and I look forward to discussing this 
issue in more detail.  
        Again, Mr. Chairman, I thank you for calling this crucial 
hearing; and we will discuss all of these issues in more detail later 
this morning.  Thank you.  
        MR. WHITFIELD.  Thank you, Dr. Burgess.  
        At this time, I will recognize the full committee Chairman, Mr. 
Barton of Texas, for his opening statement.  
        CHAIRMAN BARTON.  Thank you, Mr. Chairman.  I am going to 
submit my formal statement for the record.  
        I think it is a very important hearing.  I have just learned of 
something within the last 15 minutes that makes it even more 
important.  I am attempting to touch base with the Secretary of 
Energy and consult with Mr. Dingell, but we have got some major 
problems, and if the Administration won't do something about it, 
this committee, I hope, will.  
        So thank you for holding this hearing.  
        MR. WHITFIELD.  Thank you, Chairman Barton. 
	[The prepared statement of Hon. Joe Barton follows:] 

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, 
COMMITTEE ON ENERGY AND COMMERCE

	Thank you for holding this hearing, Mr. Chairman.  I think this 
may be one of the most important hearings we will have on DOE 
security matters.  
	Over the past several years the Subcommittee has held multiple 
hearings on the status of physical security at DOE sites.  We 
reviewed whether the Department has enough guards and guns to 
protect our nuclear facilities, but the threat from threat posed by 
malicious intruders on the internet is a growing security problem, 
and its a problem that DOE needs to more attention on.
	If left unattended, cyber security weaknesses at DOE could 
allow malicious individuals, hackers, or even groups backed by 
nation-states to penetrate DOE and gain access to sensitive 
information.  We know the hackers are out there and we know 
their attacks have caused damage to DOE networks.  We also 
know that thousands of attempts to beat DOE cyber security occur 
literally every day.  
	Recent penetration testing conducted by DOE's Office of 
Security and Safety Performance Assurance showed that DOE has 
plenty of work to do to convince me that its computer networks are 
secure.  I understand that the Department has responded to these 
recent findings with a comprehensive plan to improve cyber 
security across the weapons complex.  
	The Department's new comprehensive plan probably identifies 
several good solutions to address cyber security problems.  
However, I am concerned with DOE's ability to follow through 
with its implementation plans.  
	Due to extensive network interconnections that exist between 
DOE sites, a comprehensive cyber security program will require 
coordinated teamwork among very different DOE sites and 
programs that have not worked well together in the past.  A strong 
central policy on cyber security will also require NNSA to operate 
less like an autonomous agency, and work more closely with DOE 
policy and oversight programs.  
	It is important that the Office of Security and Safety 
Performance Assurance and the DOE Inspector General continue 
to oversee DOE's implementation of corrective actions.   Ongoing 
site inspections and unannounced network penetration testing by 
these offices will provide a good indication of whether DOE has 
successfully implemented better cyber security protections.  I 
thank the Chairman and I yield back. 

        MR. WHITFIELD.  At this time, recognize the gentlelady from 
Tennessee, Mrs. Blackburn, for her opening statements.  
        MRS. BLACKBURN.  Thank you, Mr. Chairman.  I, too, will be 
submitting my statement for the record.  
        I want to thank the witnesses that are joining us today, and I 
want to thank you for working with us.  It is an imperative that our 
constituents, the American people, know that they can trust this 
Government; and when there are items that cause that distrust, 
when there are actions that occur from the bureaucracy that 
encourage distrust, it is of tremendous concern to us.  
        So I thank you for your willingness to be here and to work with 
us; and, with that, I yield back. 
        MR. WHITFIELD.  At this time, I recognize Mr. Walden of 
Oregon, who is Vice Chairman of the committee, for his opening 
statement.  
        MR. WALDEN.  Thank you very much, Mr. Chairman.  
        I am deeply concerned about the vulnerability we continue to 
see in our data files not only in this agency but across this 
Government, and I think this committee is doing its due diligence 
along with those on this first panel to figure out how to fix those 
problems.  
        I am also deeply disturbed about the loss of employee records.  
Some 1,800 employees, I understand, have had their records 
compromised or taken in a breach of security; and it troubles me 
even more that it maybe has been 8 months and they still don't 
know.  
        That lack of notification is problematic.  It seems to be 
symptomatic across the Government and raises very serious issues 
in this Member's mind about notification systems to the highest 
levels of the Government, and by that I mean up at least to the 
Secretary's office as well as in consultation with the Congress.  
        I also am concerned about--not necessarily in this agency, 
perhaps, although we may learn more in closed session, but in 
other agencies about people who have access to data both in and 
out of the Government and especially those inside the Government, 
what kind of background checks we do.  
        We have had a policy in the Government of encouraging 
people, for example, to telecommute, and yet in a discussion I had 
with a Cabinet Secretary earlier this week, he pointed out we don't 
do background checks on those people.  So in the name of energy 
conservation and employment morale, we open up our systems to 
people who work from home.  They are able to access systems that 
may give them access to very important data; and who knows what 
cross pressures they are under and what they could do with that 
data, those employee records or Social Security numbers, with 
identification theft being so rampant and so expansive and so 
troubling for people in America today.  
        I think we have got to look across the Government, not just at 
this agency, especially at this agency because of its security issues, 
but also across the rest of the Government and definitely for a 
better cyber security policy than we are seeing today.  
        So, Mr. Chairman, I appreciate your leadership on this issue; 
and I look forward to delving into why these records were 
accessed, why people weren't notified, why the Secretary himself 
was not notified for, apparently, many months.  
        So I yield back, and I appreciate your work and that of our staff 
on this issue.  
        MR. WHITFIELD.  Thank you, Mr. Walden.  
At this time, recognize the gentleman from New Hampshire, 
Mr. Bass.  
        MR. BASS.  Mr. Chairman, I thank you for holding this hearing.  
I have no opening statement.  Look forward to hearing from our 
witnesses.  
        MR. WHITFIELD.  Thank you.  
        That concludes the opening statements.  
        I want to welcome the first panel, the Honorable Gregory 
Friedman, who's the Inspector General at the Department of 
Energy, and Mr. Glenn Podonsky, who is the Director of the Office 
of Security and Safety Performance Assessment at the Department 
of Energy.  
        As you all know, this is an Oversight and Investigations 
hearing, and it is our policy to take testimony under oath.  Do 
either of you have any difficulty testifying under oath?  Do you 
have legal counsel that you would like to introduce?  
        Okay.  Then if you would both stand up and raise your right 
hand.  
        [Witnesses sworn.]
        MR. WHITFIELD.  Thank you very much.  You are now under 
oath.  

TESTIMONY OF THE HONORABLE GREGORY FRIEDMAN, INSPECTOR GENERAL, U.S. 
DEPARTMENT OF ENERGY; AND GLENN S. PODONSKY, DIRECTOR, OFFICE OF SECURITY AND 
SAFETY PERFORMANCE ASSESSMENT, U.S. DEPARTMENT OF ENERGY  

        MR. WHITFIELD.  Mr. Friedman, I recognize you for your 
opening statement of 5 minutes. 
 	MR. FRIEDMAN.  Mr. Chairman and members of the 
subcommittee, I am pleased to be here at your request to testify on 
cyber security issues at the Department of Energy.  
        The Department, which spends over $2 billion each year on 
information technology, has a current inventory of approximately 
800 information systems.  These systems process highly classified 
national security information as well as sensitive operational and 
financial data.  The need to protect these systems is of paramount 
concern to the Department and to the Office of Inspector General.  
        My office has a proactive program to assess the effectiveness 
of the Department's cyber security strategy.  We perform the 
annual cyber security evaluation required under the Federal 
Information Security Management Act, commonly referred to as 
FISMA, and other reviews that focus on potential vulnerabilities in 
the information technology arena.  In addition, our technology 
crimes unit regularly, and I am pleased to report successfully, 
investigates malicious attacks on Department information 
technology resources.  
        In today's testimony I would like to highlight continuing 
challenges identified through our work in these areas.  
        During our 2005 FISMA evaluation, we noted systemic 
problems that exposed the Department's critical systems to an 
increased risk of compromise.  Specifically, the Department had 
not yet established a complete inventory of networks, applications, 
or external interfaces.  Many sites had not completed or properly 
performed certification and accreditation of all their major 
systems.  The Department had not resolved problems with critical 
security controls such as access authority, segregation of duties, 
and configuration management.  Contingency plans, necessary to 
ensure that information systems could continue or resume 
operations in the event of an emergency or malicious intrusion 
event, had not been completed in certain critical areas.  Finally, 
Department elements did not always report cyber security incidents 
to law enforcement officials as required.  
        Similarly, our audit of the Department's 2005 consolidated 
financial statements identified network vulnerabilities, weaknesses 
in access controls, and other unclassified systems security 
shortcomings.  In the aggregate, these problems increase the risk of 
malicious destruction or alteration of data.  Further, in many cases, 
contractors were not required to comply with the full complement 
of Federal cyber security directives.  
        In our law enforcement role, my office aggressively pursues 
those who have attempted to compromise or inflict damage on the 
Department's computer systems.  We have successfully 
investigated a number of intrusions, working closely with 
Department of Justice prosecutors and the FBI and in cooperation 
with external law enforcement agencies such as New Scotland 
Yard and the Royal Canadian Mounted Police.  
        Because of frequent intrusion attempts, it is critical that strong 
security controls be implemented.  Our investigations, however, 
have revealed problems with the deployment of basic controls such 
as those related to password administration.  In three separate 
investigations, we determined that Department of Energy systems 
were compromised after hackers took advantage of password 
vulnerabilities.  In all three cases, individuals pled guilty to 
criminal charges in connection with their activities.  Sentencing 
included incarceration, probation, and home detention.  
        We are currently conducting reviews to focus on three key 
elements of cyber security: the Department's System Certification 
and Accreditation Process; Cyber and Computer Forensic Analysis 
Capabilities; and its Security Configuration and Vulnerability 
Management Program.  
        As part of our ongoing FISMA evaluation, we also intend to 
determine if the Department has taken action to prevent 
compromises similar to those that recently occurred at the 
Department of Veterans Affairs.  
        The Department has informed us that, as a result of the 
concerns raised by our office, it has initiated actions to strengthen 
its cyber security program.  In particular, under the direction of 
Secretary Bodman and Deputy Secretary Sell, the Department has 
implemented a number of countermeasures to reduce network 
vulnerabilities and embarked on a revitalization initiative that will 
focus high-level management attention on cyber issues.  These 
efforts, if fully and timely implemented, should improve the 
Department's cyber security posture.  
        However, let me be very clear, much remains to be done.  The 
Office of Inspector General is committed to fulfilling its 
responsibility by continuing to conduct a wide range of reviews to 
identify opportunities for improvement in cyber security and to 
investigate intrusion attempts on the Department's systems and 
networks.
        Mr. Chairman, this concludes my statement; and I would be 
pleased to answer any questions that you or the members of the 
subcommittee may have.  
        MR. WHITFIELD.  Thank you, Mr. Friedman. 
        [The prepared statement of Hon. Gregory H. Friedman 
follows:] 

PREPARED STATEMENT OF HON. GREGORY FRIEDMAN, INSPECTOR 
GENERAL, U.S. DEPARTMENT OF ENERGY

        Mr. Chairman and members of the Subcommittee, I am pleased 
to be here at your request to testify on cyber security issues at the 
Department of Energy.    
        The Department of Energy, which spends over $2 billion each 
year on information technology (IT), has a current inventory of 
approximately 800 information systems, including up to 115,000 
personal computers; many powerful supercomputers; numerous 
servers; and, a broad array of related peripheral equipment.  These 
systems process operational, financial, and highly classified 
national security data.  The need to protect this data and the related 
systems is of paramount concern to the Department and to the 
Office of Inspector General (OIG).
        As is widely recognized both in the private and public sectors, 
the threat of intrusion or damage to information networks and 
systems continues to grow as cyber-related attacks become more 
sophisticated.  The media regularly carries stories about malicious 
intrusions and compromises of sensitive data.  Within the 
Department of Energy complex, on a regular basis, hackers attempt 
to intrude or cause damage to the Department's networks and 
systems.  Cyber security threats of this sort reinforce the need for 
an aggressive Departmental program of controls and safeguards to 
protect against any compromise of vital data.  
        The Office of Inspector General has a proactive program to 
assess the effectiveness of the Department's cyber security 
strategy.  For the last four years, the OIG has categorized 
information technology and systems security as one of the 
Department of Energy's most significant management challenges.   
This was based on internal control weaknesses identified as part of 
the Inspector General's regular evaluation of the Department's 
cyber security program.  These reviews include the annual 
evaluation required under the Federal Information Security 
Management Act (FISMA) and other cyber security-related 
reviews focusing on high-risk activities.  In addition, the OIG's 
technology crimes unit, with its highly trained special agents, 
regularly and successfully investigates malicious attacks on 
Department systems.  
        In today's testimony I would like to highlight continuing 
challenges identified through our work in cyber security.  I will 
outline results from completed activities and criminal 
investigations, and discuss ongoing review efforts. 

2005 FISMA Evaluation
        The purpose of the Federal Information Security Management 
Act of 2002 was to elevate attention to the issue of information 
technology security within the Federal sector.  Under FISMA, each 
agency is required to develop, document, and implement an 
agency-wide program to provide security for the information and 
systems that support core operations.  It also requires that agency 
Inspectors General conduct an annual independent evaluation of 
their Department's unclassified cyber security program and 
practices.  At the Department, the evaluation is performed in 
conjunction with our annual Audit of the Department's Financial 
Statements and leverages testing of information technology 
controls performed on individual site and Department-wide 
financial systems.  
        Last year, as part of this evaluation, we conducted reviews at 
27 sites, which, depending upon the location, included 
examinations of the Department's compliance with information 
system-related laws and regulations; tests of general and 
application controls; and, vulnerability and penetration testing.  We 
also incorporated information gathered by and conclusions reached 
by KPMG, our financial statement contractor; reports issued by the 
Government Accountability Office; inspection results obtained 
from the Department's Office of Independent Oversight; and, other 
internal studies.  
        Our 2005 review noted systemic cyber security problems that 
exposed the Department's critical systems to an increased risk of 
compromise.  Specifically:
	<bullet> The Department had not yet established a complete 
inventory of information systems; nor, had it identified all 
of the existing interfaces between internal and external 
systems and networks.  These tasks are critical to planning 
and implementing protective efforts.
	<bullet> Many sites had not completed or properly performed 
certification and accreditation of all their major and general 
support systems.  This process verifies that the 
Department's systems are secure for operation and enables 
program officials to address high-risk issues through cost-
effective mitigation strategies.   
	<bullet> The Department had not resolved noted problems with 
critical security controls such as access authority, 
segregation of duties, and configuration management.  
These safeguards and controls are designed to protect 
computer resources from unauthorized modification or loss 
and to prevent fraudulent activities.  
	<bullet> Contingency plans, necessary to ensure that systems could 
continue or resume operations in the event of an 
emergency, disaster, or malicious intrusion event, had not 
been completed for certain critical systems.
	<bullet> Department elements did not always report cyber security 
incidents to law enforcement officials, as required.  Failure 
to report these occurrences jeopardizes the timely 
investigation and resolution of these matters.

        Similarly, our Audit of the Department of Energy's 2005 
Consolidated Financial Statements (DOE/OAS-FS-06-01, 
November 2005) noted network vulnerabilities; weaknesses in 
access controls; and, other security shortcomings in the 
Department's unclassified computer information systems.  These 
shortcomings increased the risk that malicious destruction, 
alteration of data, or other unauthorized processing could occur.  
As a result, "Unclassified Network and Information Systems 
Security" was designated as a reportable condition.  An 
Information Technology Management Letter, which detailed 25 
site-specific vulnerability findings, was issued as part of the 2005 
Financial Statement Audit Report.  

Criminal Investigations and Internal Control Weaknesses
        As part of its law enforcement mission, the OIG aggressively 
pursues those who have attempted to compromise or inflict 
damage on the Department's computer systems.  In this role, we 
have successfully investigated a number of intrusions with both 
national and international connections.  We work closely with 
Department of Justice prosecutors and the Federal Bureau of 
Investigation in pursuing these matters and have worked on 
specific cases with external law enforcement agencies such as New 
Scotland Yard and the Royal Canadian Mounted Police. 
        Because the Department has to deal with frequent intrusion 
attempts that could compromise systems, it is critical that strong 
security controls are implemented and appropriately executed.  Our 
investigations have revealed problems with the deployment of 
controls in certain areas; for example, we have observed, in past 
investigations, a number of internal control weaknesses related to 
poor password administration.  In one investigation, we determined 
that employees of a United States-based computer security 
company compromised unclassified Department of Energy and 
other government systems.  Company officials were able to gain 
access to scientific data from a Headquarters system through the 
use of hacker tools that exploited a password vulnerability.  Three 
individuals pled guilty in connection with those activities.  
        During another criminal investigation, we determined that two 
individuals within the United States gained access to an 
unclassified website belonging to Sandia National Laboratory, part 
of the Department of Energy's national laboratory network.  They 
were able to gain access by exploiting a default password.  These 
individuals pled guilty and have been sentenced in connection with 
their activities.   In yet another investigation, an individual 
compromised a network at the Fermi National Laboratory, again 
by taking advantage of problems with weak password 
administration.  The hacker, who pled guilty to his activities, used 
the system as his personal storage site to host illegal software - 
creating the ability for others to download the intruder's data from 
the Department's systems.        

Ongoing Reviews
        As noted previously, the Department invests over $2 billion 
each year for information technology throughout its complex.  It is 
essential, especially given the size of the resource commitment, 
that all IT and cyber security initiatives be economic and efficient.  
To address this concern, we perform focused reviews on 
information technology-related areas.  Over the course of such 
work, we have identified millions of dollars in potential savings in 
findings related to enterprise architecture, enterprise licensing, and 
IT support services.  
        The OIG is currently conducting comprehensive reviews 
directed at three key elements of cyber security: the Department's 
Systems Certification and Accreditation Process; its Cyber and 
Computer Forensics Analysis Capabilities; and, its Security 
Configuration and Vulnerability Management Program.

           Systems Certification and Accreditation Process
        Systems certification and accreditation is an essential step in 
verifying that the Department's systems are secure for operation.  
As noted previously, we identified multiple problems with the 
certification and accreditation process at certain sites; and, as a 
consequence, we initiated a review to determine whether the 
Department's systems have been appropriately certified and 
accredited for operation.  

          Cyber and Computer Forensics Analysis Capabilities
        An ongoing effort is examining whether the Department had 
formally developed and implemented a unified, effective, and 
efficient means of analyzing and acting on information related to 
malicious attacks or intrusions.  As part of this audit, we are 
following up on problems with cyber incident reporting previously 
identified by the OIG in 2003.  

          Security Configuration and Vulnerability Management
        Building on findings in prior years and on the work already 
completed by our financial statement auditor, an audit team is 
examining operating systems and applications.  This effort will 
determine, among other things, whether minimum security 
configuration standards have been established and implemented at 
Headquarters and Department field sites.  

Status of the 2006 Office of Inspector General FISMA Evaluation
        The Office of Inspector General is currently conducting the 
2006 evaluation of the Department's Cyber Security Program.  
This Department-wide effort includes site-level evaluations - 
consisting of vulnerability and penetration testing and general and 
application controls testing - at eight sites: the NNSA Service 
Center in Albuquerque; Los Alamos National Laboratory; Sandia 
National Laboratories; the Chicago Operations Office; Argonne 
National Laboratory; the Kansas City Plant; the Y-12 Plant; and 
the National Energy Technology Laboratory.  We are performing 
follow-up reviews at 12 additional sites.  We are also specifically 
evaluating corrective actions and new initiatives begun this year by 
the Office of the Chief Information Officer.  
        As you are no doubt aware the Department of Veterans Affairs 
(VA) recently experienced the loss of sensitive personal data for 
millions of Veterans and, apparently, a large number of active duty 
personnel.  This has understandably raised concerns about identity 
theft and related problems.  My colleague, the Inspector General 
for the VA, has initiated several probes into this matter.  As part of 
our ongoing FISMA evaluation, we intend to determine if the 
Department has taken action to prevent compromises similar to 
those which recently occurred at the VA.



Conclusion
        The Department has informed us that, as a result of the 
concerns raised by our office, it has initiated actions to strengthen 
its cyber security program.  In particular, under the direction of 
Secretary Bodman and Deputy Secretary Sell, the Department has 
implemented a number of countermeasures to reduce network 
vulnerabilities and embarked on a revitalization initiative that will 
focus high-level management attention on cyber issues.  These 
efforts are promising and, if fully implemented, should help 
improve the Department's cyber security posture.  While the 
Department is moving aggressively in this area, much remains to 
be done.  As the House of Representatives Committee on 
Government Reform has recognized for the past three years 
through its ratings of Federal agencies' cyber security programs, 
significant weaknesses continue to exist at the Department of 
Energy.   
        The threat to the Department's systems is constantly evolving 
as hackers develop new and increasingly sophisticated tools and 
techniques.  The potential for harm is not limited to malicious 
internet-based attacks, but also includes other efforts by internal 
users to gain access to resources or information to which they are 
not entitled.   Constant vigilance is required to establish and 
maintain a defensive posture that is sufficient to prevent or quickly 
detect problems.  The Office of Inspector General is committed to 
fulfilling its responsibilities by continuing to conduct a wide range 
of reviews to identify opportunities for improvement and 
investigate intrusion attempts on the Department's systems and 
networks. 
        Mr. Chairman, this concludes my statement and I would be 
pleased to answer any questions.

        MR. WHITFIELD.  At this time, Mr. Podonsky, you are 
recognized for your opening statement of 5 minutes.
        MR. PODONSKY.  Thank you, Mr. Chairman and members of 
the committee, for inviting me to testify regarding the status of the 
Department of Energy's cyber security programs.  
        Like all Federal agencies, the Department faces a constant 
challenge to identify, evaluate, and apply cyber security measures 
that will establish an appropriate protection posture for information 
and information systems in this ever-changing cyber threat 
environment.  
        Both the Secretary and Deputy Secretary have demonstrated 
exceptionally strong leadership in making cyber security one of the 
Department's highest priorities.  The Department's new CIO is 
leading a revitalization effort designed to implement needed 
improvements across the Department's programs and sites.  
        Before discussing the status of the Department's cyber 
security, I would like to take a moment and give you a brief 
overview of my office responsibilities with respect to cyber 
security.  
        Within the Office of Independent Oversight, the Office of 
Cyber Security Evaluation executes one of the most aggressive and 
sophisticated cyber security corporate oversight programs in the 
entire Federal government that allows the Department to 
proactively identify and address weaknesses.  The cornerstone of 
our cyber security oversight is a rigorous penetration testing 
program that includes announced external and internal penetration 
testing of DOE networks, unannounced remote penetration testing 
or red teaming, which emulates the sophisticated external hacker 
exploding weak links to the network, and continuous scanning of 
all DOE Internet protocol addresses to identify vulnerabilities to 
Internet-based threats.  
        In addition to this testing, we conduct assessments of key 
management processes such as risk management, certification and 
accreditation, and configuration management.  While our technical 
testing provides a good snapshot of the effectiveness of the 
networks of cyber security posture, the programmatic evaluation of 
management processes provides an assessment of the strength and 
direction of the cyber security program.  
        Results of our independent oversight activities have identified 
weaknesses that lead us to conclude that the Department's 
unclassified information assets have been operating at an elevated 
level of risk for compromise and disruption, given today's threat 
environment.  
        The effectiveness of the unclassified cyber security program 
has varied across the Department and is often dependent on the 
knowledge and initiative of key network personnel utilizing 
expert-based approaches.  This in some cases has led to a lack of 
rigorous processes necessary for a solid program foundation.  
        Our oversight activities, however, have also found that some 
DOE organizations have developed mature cyber security 
programs for their own classified computers that include 
well-constructed security controls.  We have seen progress in 
addressing identified cyber security concerns.  
        The sharing of lessons learned from our red team testing as 
well as the high level of focus on cyber security by DOE senior 
officials has raised the awareness within the DOE cyber 
community in increased expectations and threats.  
        In contrast to the unclassified program, our independent 
oversight activities indicate that the classified cyber program is 
providing an adequate level of protection.  
        In response to the independent oversight findings, especially 
the recent penetration testing that I referred to as the red team 
testing, the Deputy Secretary directed my office to also lead an 
effort to develop a comprehensive plan of action to remedy 
existing management and operational technical weaknesses at the 
Department's unclassified cyber security program.  Our office, 
together with the Office of the CIO, led a team of departmental 
cyber security professionals to develop a plan of action and remedy 
these long-standing weaknesses.  These recommendations, issued 
by the team in what we call the Cyber Security Project Team 
Summary Report and Plan of Action, represent the consensus of 
senior representatives from the Office of the CIO, NNSA, SSA, 
and others and put us on a path of improving cyber security 
throughout the Department.  
        The revitalization efforts the Department has taken on shows 
many initial steps to upgrade cyber security and improve the 
posture.  Our new CIO has proactively developed a cyber security 
revitalization plan that includes in its appendix the 
recommendations from the CSPT.  The revitalization plan is an 
important next step in the difficult process to define a cyber 
security management and operational framework that can 
institutionalize yet be responsive to the dynamic world of cyber 
threats.  
        The line managers responsible for implementing the technical 
controls necessary to reduce the risk are taking immediate actions 
where feasible, but must carefully evaluate a balance for the need 
for any additional controls with their site-specific mission 
requirements, threat environment, and resource limitations.  
        In conclusion, the Office of the CIO and the program offices 
we believe have laid the necessary groundwork to build a 
responsive program that will begin to assure that our information 
and information systems are adequately protected.  We have 
already seen improvements in this area and continue to be 
cautiously optimistic that historic systemic problems with 
departmental cyber security processes will be addressed.  
        Individual sites in both Under Secretaries for ESC and NNSA 
are working to reevaluate the need for improved security measures 
based on their mission requirements and accepted risk management 
principles.  
        Our office will continue to implement an aggressive schedule 
of internal and external penetration and performance testing and 
use the results of those tests to aid the Office of the CIO program 
offices and site managers in maintaining a protection posture that 
proactively manages and anticipates new and emerging threats and 
the use of new technologies by our adversaries.  
        Mr. Chairman, this concludes my testimony.  
        MR. WHITFIELD.  Thank you very much, Mr. Podonsky. 
        [The prepared statement of Glenn S. Podonsky follows:] 



PREPARED STATEMENT OF GLENN S. PODONSKY, DIRECTOR, 
OFFICE OF SECURITY AND SAFETY PERFORMANCE ASSESSMENT, 
U.S. DEPARTMENT OF ENERGY

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

        MR. WHITFIELD.  I notice that in your testimony you said there 
was an elevated level of risk for compromise on this unclassified 
material.  That's basically your statement regarding the DOE 
system at this time?  
        MR. PODONSKY.  Yes, sir.  That was based upon our red team 
effort.  Since that red team effort, there have been corrective 
actions that are under way, but, nevertheless, we still have serious 
concerns.  
        MR. WHITFIELD.  Now I'm assuming that there are many 
hackers around the world that would have the expertise and 
sophistication of your red team, is that correct?  
        MR. PODONSKY.  Yes, sir.  Our red team, many of whom sit 
behind me in this hearing room, are really quite technically 
competent in what they do.  However, we are aware that there are 
others that are equally as competent and perhaps even more so.  
        MR. WHITFIELD.  So not casting any aspersions on their 
expertise, there are a lot of other people out there that would be as 
competent as they are.  
        MR. PODONSKY.  Yes, sir, I would say that's an accurate 
statement.  
        MR. WHITFIELD.  On April 15th, 2001, we had a hearing of this 
subcommittee, and your staff demonstrated at that time cyber 
penetration techniques that penetrated a single DOE computer and 
from that computer you gained complete and utter control over the 
entire system.  
        Now I understand that during a recent November 2005 red 
team network penetration test, you again successfully gained 
control over a DOE site network; and from there your team used 
network interconnections to gain control over the computer 
systems at several other DOE sites.  Is that true?  
        MR. PODONSKY.  That is true.  You are describing our red team 
effort.  
        MR. WHITFIELD.  Now based on the degree of access privileges 
your red team obtained during this cyber security penetration test 
last fall, would you describe that they had utter control over the 
system?  
        MR. PODONSKY.  What the red team was able to demonstrate 
after a very long and protracted test is that we had access to 
sensitive data, which could be including financial or personal data.  
We could have had access to have the ability to impersonate or 
monitor departmental executives.  We had the ability to impact the 
availability of integrity of computer-serving business functions.  
We had the ability to launch aggressive denial service attacks.  
        We basically--in the parlance of cyber security, we had domain 
control.  
        MR. WHITFIELD.  You had domain control.  
        How would you gauge DOE's overall efforts with respect to 
cyber security over the 5 years since the subcommittee's April 
2001 hearing?  
        MR. PODONSKY.  Mr. Chairman, it is easy for us to say the 
following, and that is the Department is moving far too slow to our 
liking.  But we are not the ones who have to fix the problems, so 
we are out there identifying the problems.  
        But given today's emerging threats that are continuous, we feel 
that, since the 2001 hearing, that while there are a lot of steps that 
the Department is taking and is currently taking, including in 
response to our most recent red team, we do think that there is a 
sense of urgency that must be represented.  As the Deputy 
Secretary and the Secretary, and I know the two Unders feel, that 
we need to keep on moving, and I believe the CIO feels that way 
as well.  
        MR. WHITFIELD.  In your November 2005 report, you noted 
that previously secretarial-led initiatives launched in 2004 and 
2005 to improve DOE cyber security posture had been largely 
unsuccessful in effecting needed improvements.  Is that still your 
view on that?  
        MR. PODONSKY.  It is a varied success story.  There are 
different sites that are being more aggressive, and I said--and I 
would like to iterate the point--we're guardedly optimistic that the 
new CIO will be much more aggressive in working together with 
the line offices and the under secretaries to fix the problems that 
have been identified.  
        MR. WHITFIELD.  So, as you said, your responsibility is to 
exploit these weaknesses and make them known to the CIO and the 
Secretary and others at the Department of Energy.  
        MR. PODONSKY.  That's part of our responsibilities, yes, sir.  
        MR. WHITFIELD.  It's their responsibility to make the network 
more secure so that your red team and others cannot infiltrate.  
        MR. PODONSKY.  That's correct, sir.  
        MR. WHITFIELD.  Now when you do a report, you certainly 
give that report to the Secretary, the CIO, and others, I'm 
assuming.  Do you all generally sit down and go over in some 
detail about exactly how you were successful?  
        MR. PODONSKY.  Yes, sir.  We have a very good partnership 
with the CIO office in working together in finding ways to solve 
some of the problems we are finding, but we what we call validate 
our report findings so we make sure that what we find is 
technically accurate, and when we report that forward to the 
various managers we want to make sure that--we are not there to 
fix the problems but we at least work with them to identify ways 
that they might pursue.  
        MR. WHITFIELD.  Mr. Friedman, in your testimony, you stated 
that the Department did not always report cyber security incidents 
to law enforcement officials as required; and your staff has 
informed us that DOE has failed to report as many as 50 percent of 
all reportable cyber attacks to the appropriate authorities.  Can you 
explain why DOE has failed to report these incidents and why it is 
important that these incidents be reported?  
        MR. FRIEDMAN.  Mr. Chairman, let me take the second part of 
your question first.  
        The reporting of these incidents, number one, gives law 
enforcement the opportunity to track down those who are 
responsible for the malicious attack, bring them to justice, and set 
an example for others, which hopefully leads to prevention of 
individuals in the future attempting to do the same thing.  
        Number two, it allows for trends analysis.  
        Number three, it allows us to determine whether similar sorts 
of intrusions or attempts at destruction are occurring at other 
locations so that we can assist the Department and make 
recommendations for corrective actions, patches, fixes to prevent 
that from happening.  So we think it's extremely important that 
these issues be reported and be reported promptly.  
        In terms of why it's not happening, tragically, Mr. Chairman, I 
don't have a good answer.  I wish I did.  We ask, we probe, we try 
to find out.  I think to some degree it is individuals who think that 
they can fix it internally; therefore, there is no need to bring in an 
outsider; people who may not fully comprehend the gravity of the 
situation.  But I really don't have a satisfactory answer to your 
question.  
        MR. WHITFIELD.  That's a rather large percentage, 50 percent.  
        MR. FRIEDMAN.  That's correct.  
        MR. WHITFIELD.  That is one of the disturbing things about an 
agency as big as DOE.  I mean, the Secretary may not even be 
aware of that.  Hopefully, the Chief Information Officer would be 
aware of that and take some steps to deal with it.  That is another 
issue.  
        I'm sorry?  
        MR. FRIEDMAN.  I apologize, Mr. Chairman.  We have reported 
that issue on several occasions.  It is a repeat finding.  So it's not as 
though this is a one-time finding.  This has been a pattern that we 
have seen.  Now it's gotten better in our view, but it's still a 
problem.  
        MR. WHITFIELD.  That's another thing that's so disturbing to us 
from this perspective about this breach regarding these personnel 
files.  Although we don't have all the facts about this, the fact that 
it was known to someone in the Department 8 months ago and the 
Secretary was unaware of it until maybe a day ago or maybe today, 
the CIO was not aware of it.  It's unbelievable that 1,500 personnel 
files could be compromised with Social Security numbers, and the 
impact that that could have on those individuals is quite disturbing.  
I am sure you would agree with that.  
        MR. FRIEDMAN.  I would.  
        MR. WHITFIELD.  I would ask this to Mr. Friedman and Mr. 
Podonsky.  In the written testimony of Under Secretary Garman, 
he states that, "While we are not yet where we need to be, I believe 
we are far better off than we were a year ago."  I would just ask 
you, do you agree with that statement or do you have enough 
information to disagree with it?  
        MR. FRIEDMAN.  Well, let me say I think there certainly have 
been improvements.  The number of findings we have had in the 
2005 FISMA report are less than we had 4 years ago.  So there 
certainly have been improvements.  
        Your colleagues on the House Government Reform Committee 
have given the Department an F in cyber security in this arena as a 
result of their evaluation.  So I think that there is a great deal more 
to be done as I testified.  
        MR. WHITFIELD.  I mean, there is no excuse for a Department 
having an F in cyber security.  
        Mr. Podonsky.  
        MR. PODONSKY.  Mr. Chairman, I would answer your question 
in terms of the red team.  If we were to launch the red team today, 
could we have the same access that we had during the last year?  
And I would say that we could gain access but we would not be 
able to have domain control.  
        So there have been some very distinguished changes that have 
come about, and that is important.  As long as you have any system 
connected to the Internet, we are going to have vulnerabilities.  Not 
just our agency but the entire Federal government, legislative arm 
included, needs to be very mindful of the capabilities that are out 
there and the availability, that people can come into our networks 
without our knowledge and pretty much, if we don't have the 
controls in place, have access to our records.  
        The Department from my point of view is that it has gotten 
better, but, as Mr. Friedman has stated and I have stated, there's a 
long way to go.  
        MR. WHITFIELD.  Thank you.  
        At this time, I recognize the gentleman from Michigan.
        MR. STUPAK.  Thank you, Mr. Chairman.  
        Mr. Podonsky, you said you had domain control when you did 
your red team exercise in November of 2005.  Would that domain 
control allow you to go anywhere you wanted to go?  
        MR. PODONSKY.  At the time that we were in the network, the 
answer to that is yes, within the unclassified network.  That meant 
that we were able to get passwords, that meant that we were able to 
go from one account to another account.  Perhaps if we stayed 
longer--and this is a supposition on our part--we make it a policy 
not to damage anything when we go in.  
        MR. STUPAK.  If it's unclassified, in fact you have passwords 
and others, what's sensitive about it, then?  
        MR. PODONSKY.  You potentially have financial records, 
personnel files.  Anything that is contained in the unclassified 
arena.  
        MR. STUPAK.  Did your red team in November 2005 try to go 
into the classified areas?  
        MR. PODONSKY.  We did, and we were not successful.  
        MR. STUPAK.  You indicated that you thought that DOE was 
still moving too slowly in cyber security, in response to an answer 
to the Chairman.  What in your estimation or your group's 
estimation would make DOE move faster in this area.  What will it 
take?  Where is it lacking?  
        MR. PODONSKY.  As I stated in the other question, it's easy to 
be on the side of criticizing.  I asked my cyber colleagues what 
would it take to fix this, and we talk about segmentation, 
segmentation of systems.  We talk about encryption, encryption of 
all the data.  We talk about putting more tools out there for 
changing passwords on a more frequent basis; tools out there to 
monitor the perimeter so that we can make sure that we at least 
know when somebody is coming in.  Even though we can't stop 
them, we can at least know they are in the system.  
        We believe the CIO is starting to move in that direction.  When 
I talk about impatience for the solution, it is because we have been 
inspecting the Department for a number of years and we have been 
seeing a lot of the repeat findings, as Mr. Friedman also talks about 
in his office.  Some of those steps are some of the steps we would 
like to see done more rapidly.  
        MR. STUPAK.  In response to the Chairman, you said your job 
is not to fix the problem but to make suggestions or give them 
ideas on how they can be fixed, like monitor and change pass 
codes more often.  Is that advice ignored?  
        MR. PODONSKY.  I think a better characterization of the office 
is that we are like the internal GAO.  We identify the problems, 
make recommendations.  But clearly the program offices have to 
prioritize their mission and their functions on how they are going 
to accept those recommendations.  We don't personally or 
professionally believe that we have been ignored; it's just it hasn't 
always been the highest of priorities until the most recent 2 years.  
        MR. STUPAK.  Doesn't seem like a priority until something 
occurs.  I can't help think out loud, and I think my colleagues 
would join me; we learned about the latest breach recently, and 
that's probably only because we had this hearing.  It seems like 
action occurs only when this Committee on Oversight and 
Investigations actually has a hearing and is willing to start pushing 
on some of these issues.  That's not a question, so let me ask you a 
question.  
        Is there anything in the unclassified network that you were in 
in November of 2005 that could somehow impact national 
security?  You say you were bouncing around in the unclassified 
area, but by having domain control could you impact national 
security?  
        MR. PODONSKY.  I think that hypothetically that anything is 
possible once you start delving into the systems.  For example, 
there may in fact be some information that is not yet classified, 
then later becomes classified, so that you always have that 
possibility.  
        MR. STUPAK.  One of the things you could do, I thought you 
said, was denial of service.  That could impact national security, 
could it not?  
        MR. PODONSKY.  Yes, sir.  
        MR. STUPAK.  Especially when we're dealing with cyber 
security.  
        Mr. Friedman, and maybe Mr. Podonsky, the cyber security, 
most employees at DOE--or most, I should say, of DOE's budget 
is for private contractors.  They probably have more private 
contractors than any other Department in the Government.  Cyber 
security, is that left mostly to private contractors?  
        MR. FRIEDMAN.  To put some context, Mr. Stupak, as best we 
can determine the numbers, the Department spends about $140 
million a year on cyber security, and it is quite clear that the vast 
majority of the money is spent by contractors; 85 to 90 percent of 
the Department's budget is spent by contractors.  So as a 
consequence, although it's slightly disproportionate when it comes 
to cyber security, that rule of thumb applies reasonably well in this 
context.  
        MR. STUPAK.  Here are the points I'm having problems with.  I 
have been on this committee for 10 years and it seems like, 
unfortunately, with DOE we're always here talking about things 
we would rather not be talking about.  
        What control do you really have, or even this committee, over 
contract employees?  You're a government agency, contract 
employees working for us.  We really can't, unless you fire this 
individual or hold that individual accountable.  How do you bring 
accountability, then, in your cyber security if 80 to 90 percent of it 
is contracted out?  How do you get the things done that have to be 
done like you said, no contract with law enforcement, 50 percent 
still not being reported.  Where does the accountability come in, 
then, in a system that is, in my estimation, sort of fragmented?  
        MR. FRIEDMAN.  As I think the Chairman alluded to in his 
opening statement, I think it was the Chairman, this is an 
incredibly complex agency with a lot of stovepipes, and those have 
to be broken down so that the policy is clear; it is communicated 
clearly to the Federal officials and communicated clearly to 
contractors as well.  
        One of the points I indicated in my testimony and we've 
reported on is the fact that there is not a complete flow-down of all 
the Federal requirements to the contractors in their current 
contracts.  We believe that is a part of the problem.  
        But to answer your fundamental question, Mr. Stupak, it seems 
to me that contractor accountability means truly holding their feet 
to the fire, and that means having meaningful reductions in their 
award fees if there are problems; and ultimately, if they are not 
corrected, not continuing their service to the Department of 
Energy.  
        I think until tough action is taken and the action is manifest to 
the contractors as a result of a lack of commitment to cyber 
security, it seems to me that there will not be significant 
improvement in that regard.  
        MR. STUPAK.  In the position that you have been in for some 
time now, and before this committee many times, have you seen 
that accountability, have you seen holding their feet to the fire, 
have you seen contracts be terminated?  I mean, I sit here and I 
think of Los Alamos and how many times I have been through that 
situation.  We re-awarded the contract to the same folks that have 
been unaccountable for so long before this committee.  
        MR. FRIEDMAN.  In part it seems to me it takes commitment on 
the part of the Secretary and Deputy Secretary.  And I don't mean 
to denigrate any of their predecessors, but it's quite obvious that 
Secretary Bodman and Deputy Secretary Clay Sell are invested in 
this issue; and it seems to me the tone at the top with regard to 
cyber security is extremely important.  They set the agenda, and if 
they pursue the course that they have initiated, it seems to me that 
we will see a meaningful difference.  
        MR. STUPAK.  Meaningful difference we haven't seen yet.  
That's what I'm trying to get at.  
        Mr. Podonsky, since you mentioned the Deputy Secretary, that 
you were directed by the Deputy Secretary to do more work in this 
area, you said--I think it's on page 5 of your testimony--who is that 
Deputy Secretary?  
        MR. PODONSKY.  Deputy Secretary Sell.  
        MR. STUPAK.  I have no further questions at this time.  
        MR. WHITFIELD.  Thank you, Mr. Stupak.  
At this time I recognize Dr. Burgess of Texas for 10 minutes.  
        MR. BURGESS.  Thank you, Mr. Chairman.  
        Seems like we are hearing all too often: Veterans 
Administration lost data on 27 million veterans, the IRS lost data 
on 291 employees.  These are emerging types of threats that are 
occurring.  And while, Mr. Podonsky, I respect the cleverness and 
the clever minds that you have working for you on the red team, 
there also seem to be nimble, clever minds working on the other 
side as well, so it's a constant battle, struggle, to keep up with what 
the other side is able to produce.  
        What role does the imposition of encryption software play in 
all of these--in a general form in all of these things that we have 
heard about in recent weeks about theft of sensitive computer data, 
not just the Department of Energy but throughout the various 
Federal agencies?  
        MR. PODONSKY.  From our perspective, the encryption of data 
would make the loss of information virtually less of a concern.  It 
is an issue that Mr. Pyke, our current CIO's predecessor two CIOs 
back, had introduced.  
        Again, as I said in previous questions I have answered today, 
it's easy for us to say I don't know what the cost would be.  But 
from our way of thinking, the cost can't be as high as the loss of 
data.
        MR. BURGESS.  That was going to be my next question.  You 
mentioned sequestration and encryption.  How expensive are these 
technologies to put into place?  I guess you have already answered 
that.  You don't know.  
        MR. PODONSKY.  I don't know, but I would iterate the point it 
can't be more expensive than the loss of the data that we are 
talking about here.  
        MR. BURGESS.  I have a strong notion that you are correct and I 
hope this committee explores that to some degree.  Apart from the 
expense, or if the expense could be modified or met, would you 
feel that it would be the position of the Department of Energy to 
rapidly deploy this type of protection?  
        MR. PODONSKY.  That would be up to the senior managers, the 
two Unders and CIO, but that would be our recommendation.  
        MR. BURGESS.  Up to the managers and the two Under 
Secretaries?  
        MR. PODONSKY.  Actually the three Under Secretaries now, as 
well as the CIO.  
        MR. BURGESS.  Mr. Friedman, do you have any thoughts about 
encryption software and its implementation and its cost?  
        MR. FRIEDMAN.  We do.  We don't have a benchmark but it's 
not quite as costly as we thought it might have been.  As a matter 
of fact, in response to the problem at the Department of Veterans 
Affairs, as auditors, inspectors, and investigators, we travel 
extensively.  We have laptops, we're all over in the Department of 
Energy complex.  
        We have a policy in which we, number one, substantially 
control the information that our auditors, inspectors, and 
investigators can carry with them.  Number two, when they leave 
the DOE complex, the information that they carry with them, 
regardless of what form, either has to be in a locked box, safe, or 
equivalent, or must be encrypted.  
        So we are moving on that internally, and I have shared the 
policy and procedures that we've implemented with the 
Department CIO.  
        MR. BURGESS.  Does technology exist so that if a laptop is 
stolen and they log on to the Internet, that its location can be 
identified or the hard drive could be destroyed?  
        MR. FRIEDMAN.  I am not expert enough, Mr. Burgess, to give 
you a good answer on that, but I will tell you we have experienced 
similar situations, stolen or lost laptops in the Department of 
Energy over time.  So the suggestion--
        MR. BURGESS.  We have had hearings on that.  
        MR. FRIEDMAN.  So, the suggestion you are making is not 
without merit.  I don't know technically whether it's possible.  
There are others who might have to answer that question.  
        MR. BURGESS.  Mr. Podonsky.  
        MR. PODONSKY.  My staff was whispering in my ear saying 
you could probably find it, and the technology is out there.  
        MR. BURGESS.  Let me ask you a question about sequestration 
because I'm not familiar with that at all; sequestration meaning 
within the vast domain of unclassified data on the Department of 
Energy site to keep people from going from one area to another?  
        MR. PODONSKY.  You compartmentalize.  You 
compartmentalize one group from another.  I'm not saying this is 
the way it is, but just for illustrative purposes, if you have science 
labs that want to talk to one another, well, have them have a 
network where they can just talk to each other and not bring their 
network into the overall DOE domain, as you will, because then if 
they are talking to each other and they get compromised, then they 
might have an entry into other parts of the Department.  
        So the more separation you can make among systems, we think 
you are going to have a greater security and prevention of people 
just roaming through your network, and that's an overstatement of 
roaming through, but that's going back to what we felt we were 
doing during the red team.  
        MR. BURGESS.  It is frustrating to be here on the dawn of the 
Information Age, where so much power is available to us from 
information, and have to put up these barriers from our scientists.  I 
know, for example, the sequencing of the human genome would 
never have been possible without the Internet, with scientists 
talking rapidly across the Internet, and now that--perhaps that 
scientific inquiry may be stifled because of having to 
compartmentalize for security reasons.  Just a personal note:  It's 
extremely frustrating.  
        We had a hearing or markup yesterday on security in medical 
records and the irony of wanting to expand the HIPAA protections 
on one hand because of what happened at the VA, and, on the 
other hand, wanting to keep the data available to researchers at the 
University of Madison.  It's extremely frustrating, and I hope the 
bright minds behind you on the red team can figure out ways to 
keep the bad guys out but yet let our scientists continue to 
communicate as they need to.  
        MR. FRIEDMAN.  You make a very good point.  I mean, in the 
role that I play, of course, efficiency and effectiveness of 
Department operations are of paramount concern.  Striking a 
balance between appropriate levels of security and cyber security 
and yet not impeding the operations of the Department is a very 
significant conundrum that we face every day, and it is going to 
take some really bright minds to figure out a way of doing both.  I 
think that is ultimately where we need to be.  You make a very 
good point.  
        MR. BURGESS.  Thank you.  On sequestration, encryption, we 
are already spending $140 million a year, but things like using the 
security patches provided by software vendors, changing 
passwords, that is pretty low tech and pretty inexpensive.  I 
understand those simple procedures weren't always followed.
        MR. FRIEDMAN.  As I indicated in my testimony, I cite three 
investigations where the individuals involved were incarcerated 
and pled guilty to the charges, in which password vulnerabilities in 
each of the cases were the approximate cause or set up an 
environment in which the malicious attempts could occur.  
        MR. BURGESS.  Mr. Podonsky, you testified in response to a 
question by the Chairman that your red team now could still gain 
access but not domain control, whereas a year ago domain control 
was a possibility, for people to come into the networks without 
your knowledge.
        Can we, sitting on the committee, be completely satisfied that 
domain control is something that could not be gained by either the 
red team or the bad guys seeking access into our systems?  
        MR. PODONSKY.  No.  I think the only comfort that all of us can 
have as Americans is that we continue to put up more barriers to 
make it more difficult.  But the more sophisticated the hackers 
become the more challenging it is for us.  So when I answered that 
question it was based on our capabilities right now plus what we 
know that the CIO and the cyber security community are doing.  It 
would be much more difficult for us to do that.  But since this is a 
continuously evolving technology I don't think that we can make a 
definitive statement that it could not happen again.  
        MR. BURGESS.  In the limited time I have left here--this is an 
observation.  We are in the 21st century, but I can remember 
10 years ago or more a very popular singer was shot down in 
Corpus Christi, Texas, and taken to the hospital.  People on the 
hospital staff who did not have a direct responsibility for that 
patient's care who accessed that patient's data were in fact 
dismissed from the hospital staff.  They were fired.  
        This is 10 years before HIPAA.  So even back in the early '90s 
we had the systems in place in that hospital--at least I remember 
reading the news reports--that could identify and locate those 
individuals.  It's just striking to me that we sit here now with all of 
the advances that have been made in computer technology and we 
don't even seem as sophisticated as that small hospital in Corpus 
Cristi, Texas, 10 or 12 years ago.  Is that a valid observation?  
        My time is up, Mr. Chairman.  I'll yield back. 
        MR. WHITFIELD.  Thank you, Dr. Burgess.  
        At this time, I recognize the full committee Chairman for 
10 minutes.  
        CHAIRMAN BARTON.  I want to thank Ms. DeGette so I can go 
out of order.  I have got to go give a briefing in about 10 minutes.  
I appreciate her consideration.  
        Mr. Podonsky, who do you report to at the Department of 
Energy?  
        MR. PODONSKY.  My office and I report to the Deputy 
Secretary.
        CHAIRMAN BARTON.  And he reports to the Secretary of 
Energy.  
        Does your office have any authority or oversight over the 
National Nuclear Security Administration. 
        MR. PODONSKY.  We do conduct oversight within the NNSA, 
yes.
        CHAIRMAN BARTON.  You conduct oversight. 
        MR. PODONSKY.  Oversight of environment, safety, health, 
safeguard security --
        CHAIRMAN BARTON.  What does that mean, you "conduct 
oversight?"  
        MR. PODONSKY.  We conduct inspections of the operational 
sites within the NNSA.
        CHAIRMAN BARTON.  And, Mr. Friedman, as Inspector 
General, you have oversight within your purvey over the entire 
Department; and that would also include the National Nuclear 
Security Administration, would it not?  
        MR. FRIEDMAN.  That's correct, Mr. Chairman.
        CHAIRMAN BARTON.  I am going to ask you some questions, 
Mr. Podonsky.  I'm not an expert on what's classified and what's 
not, so if I ask you something that requires an answer that's 
classified, you just say so.  
        But my understanding is that, as Director of the Office of 
Security and Safety Performance Assessment, you oversee the 
implementation of certain exercises that test the security systems 
of the Department, is that correct?  
        MR. PODONSKY.  Yes, sir.  We actually conduct performance 
testing and physical security as well as in cyber security.
        CHAIRMAN BARTON.  And I am told that in one of those 
performance assessment tests, your team was able to penetrate 
some of the security systems of the Department, is that correct?  
        MR. PODONSKY.  We have had that success in our performance 
testing on numerous occasions.  
        With specifics to this hearing, we had long, protracted red 
teaming tests where we were emulating the same as a hacker 
would do; and we penetrated throughout the national training 
center in Albuquerque and the service center there.
        CHAIRMAN BARTON.  I am also led to believe that when that 
red team was successful that those results were reported to the 
appropriate officials in the Department.  That included the 
Secretary and the Deputy Secretary, is that correct?  
        MR. PODONSKY.  Yes, sir.
        CHAIRMAN BARTON.  Now I am also told that, after that report, 
there was a discovery that the security system had been breached 
for real, is that correct?  
        MR. PODONSKY.  Yes, sir.  And that we would be better off to 
go in more detail in a closed session.
        CHAIRMAN BARTON.  But it's not classified that there was a 
real breach. 
        MR. PODONSKY.  No, sir.
        CHAIRMAN BARTON.  Okay.  Now who should have been told 
of that and when should they have been told and who was 
responsible for the telling?  
        MR. PODONSKY.  Relative to the information sharing, the 
Secretary, the Deputy Secretary, the Administrators for both ESE 
and NNSA should have been told immediately.
        CHAIRMAN BARTON.  Immediately. 
        MR. PODONSKY.  Immediately.
        CHAIRMAN BARTON.  The Secretary of Energy should have 
been told immediately. 
        MR. PODONSKY.  Absolutely.
        CHAIRMAN BARTON.  What would the penalty be or should the 
penalty be if the Secretary were not told immediately of such a 
breach of security?  
        MR. PODONSKY.  I can't speak on behalf of the Secretary, but, 
were I in that position, I would be looking for accountability for 
the individuals that didn't tell me.
        CHAIRMAN BARTON.  All right.  That's all the questions I have 
at this point in time.  Thank you, Mr. Chairman.  
        MR. WHITFIELD.  At this time, I'll recognize Ms. DeGette of 
Colorado.
        Ms. DeGette.  Thank you very much, Mr. Chairman.  
        Like the full committee Chairman, I am looking forward to 
probing some of these issues, Mr. Podonsky, more in depth in 
executive session.  So let me just ask a few questions of my own.  
        Does the DOE have its own firewalls?  
        MR. PODONSKY.  Yes, ma'am, it does.  
        Ms. DeGette.  Are those firewalls sufficient to protect DOE 
data from hackers and other breaches?  
        MR. PODONSKY.  In many cases the answer is yes.  When we 
did our penetration testing, we used the weakness of the human 
element.  Any time you have people involved, you have different 
ways that you can penetrate, whether it be through attachments to 
e-mail or whether it's through the way we did it, with using a disk 
that we mailed through the U.S. mail.  And once you get inside, 
because somebody was not aware that they were exposing the 
Department vulnerability by clicking on to something, then you 
have let somebody through the firewall but you didn't go directly 
through the perimeter itself.
        Ms. DeGette.  What kinds of precautions can be put in place, in 
addition to what we have now, aside from beefing up the firewalls 
to stop the kind of breaches you're testifying about?  
        MR. PODONSKY.  A major effort which is currently under way 
by the CIO's office, Tom Pyke, is making everybody aware of the 
vulnerabilities that exist out there.  And that may seem very 
simplistic, but it really isn't because people sitting at their own 
desktop sometimes get a false sense of security, not knowing that 
they are potentially exposed when they open up e-mail.  So 
awareness is a very big part.
        Ms. DeGette.  That's all well and good, and I am very 
supportive of it, but, of course, that relies then on human nature to 
protect against these breaches.  Are there any additional 
technological precautions that we can put in place to protect 
against people going around in the ways that you have described?  
        MR. PODONSKY.  Yes, ma'am.  Earlier, before you came in, I 
talked about doing encryption of information throughout so that if 
information was obtained, then it would be protected by the fact 
that it was encrypted.  We talked about segmentation, putting 
people into different networks so that not everybody is connected 
to one another.  There are tools out there also that routinely change 
passwords so that people can't just break a password and have 
access to your files.  So there's a lot of technology out there that 
could be a employed.
        Ms. DeGette.  Is it being applied?  
        MR. PODONSKY.  In some instances, it is starting to be applied.
        Ms. DeGette.  Do you think it could be applied more 
aggressively?  
        MR. PODONSKY.  I answered earlier to your colleagues.
        Ms. DeGette.  I am sorry.  I came in late. 
        MR. PODONSKY.  Because I am repeating myself.  I am just--
the answer is, for us who do not have to implement the fixes, 
nothing is going fast enough.  So it is easy for us to make those 
statements.  But, yes, ma'am, we believe it could be more 
aggressive; and we are optimistic that the Secretary and the Deputy 
Secretary and the Under Secretary and the CIO are looking to be 
more aggressive in this area.
        Ms. DeGette.  Mr. Friedman, you noted in your last--I 
apologize if I am being redundant again, but you noted in your last 
assessment of DOE's cyber security program you found systemic 
problems that exposed the Department's critical systems to 
increased risk of compromise.  Which systemic failures troubled 
you and why?  
        MR. FRIEDMAN.  Firewall issues, incomplete inventory of 
computers and computer systems and networks, inadequate 
certification and accreditation processes--all of which are 
extremely important in creating the safest environment possible.  
Password authorization problems.  Some very basic things.
        Ms. DeGette.  Why did those failures trouble you?  
        MR. FRIEDMAN.  Well, they led us to conclude that the overall, 
overarching Department of Energy structure in cyber security is 
riskier than is satisfactory.
        Ms. DeGette.  And without going into classified information, 
would you say some of those problems that you identified led to 
the breaches that we're going to be talking about in a few minutes 
in Executive Session?  
        MR. FRIEDMAN.  I would prefer not to answer that question in 
this environment, if you don't mind.
        Ms. DeGette.  Mr. Chairman, I yield back the balance of my 
time. 
        MR. WHITFIELD.  Thank you, Ms. DeGette.  
        At this time, the gentleman from Washington, Mr. Inslee, is 
recognized for 10 minutes.  
        MR. INSLEE.  Thank you.  
        Just looking at some of the history that's gone on here, I just 
wondered from a budgetary standpoint what has gone on in the last 
2 years with DOE in response to these identified difficulties that 
have been experienced.  We've seen penetration by this testing 
system.  We've seen identification by DOE of the need to respond 
to some of these.  From a budgetary standpoint, has there been a 
commitment of resources to solving these problems or is this just 
sort of an overlay, that management has said we are going to give 
an overlay of your current responsibilities and everyone is going to 
have to increase, or has there been a budgetary response to this 
problem?  
        MR. PODONSKY.  Mr. Inslee, while I am not involved with the 
budgetary process for cyber security, I can tell you that we have 
seen a substantial increase in the CIO's budget and the 
centralization of the responsibilities for the CIO.  So we do 
believe, from an independent oversight perspective, that the 
Department is applying resources to fix the problem, as opposed to 
just reports.  
        MR. INSLEE.  Mr. Friedman, do you have any comment?  
        MR. FRIEDMAN.  At this point, from our vantage point, as 
carefully as we've tried to look at this, I cannot correlate dollar for 
dollar increases in the cyber security budget with enhancements 
taking place.  The problem is more environmental, if I may put it 
that way, than a shortage of resources.  
        Although I will say that when we talked to contractor personnel 
in the field, and we had a discussion earlier about the structure of 
DOE and the importance of the contractors, we do hear a number 
of complaints that there are things that they say they cannot do 
because the funds simply are not available.  I have not verified that 
independently.  
        But, as I indicated earlier, the Department spends between two 
and two and a half billion dollars a year on information technology 
in the Department of Energy, Mr. Inslee, and we have a cyber 
security budget of about $140 million a year, so significant 
resources are being devoted to this problem.
        MR. INSLEE.  Is there value to be added by increasing 
frequency of these external controlled attacks, if I can call it, that 
our own good guys are attacking our DOE?  Is that done with 
adequate frequency or aggressiveness?  Should it be done more 
often to try to solve this problem?
        MR. PODONSKY.  Sir, since my office is responsible for 
conducting the majority of these penetration testings for the 
Secretary, I would tell you that we believe we are doing it on an 
appropriate frequency.  Could it be more aggressive?  We have 
become more aggressive in the last 2 years.  But, at the same time, 
we also recognize that, as we continue to find the problems, the 
Department also has to catch up with fixing those problems.  
        From a standpoint of independent oversight, I would say there 
could be diminishing returns if we are constantly attacking the 
Department in ways that they don't have time to fix it.  There 
could be an unintended consequence of never getting to the bottom 
of getting all of the problems fixed.
        MR. INSLEE.  Listening to your answers to Chairman Barton's 
questions about who should be notified when there are breaches, I 
suspect when we go to our closed hearing we are going to find 
non-compliance with the expectations that you suggested.  What 
could Congress do to see to it that if there is non-compliance with 
those expectations that you enumerated, what could we do to see to 
it that somebody cracks the whip on this problem?  What would 
you suggest?  
        MR. PODONSKY.  I think you are doing it right now by having a 
hearing.  
        MR. INSLEE.  I would hope so.  I am not sure that we are as 
omnipotent that you might think on a hearing. 
        MR. PODONSKY.  Depends on if you are sitting up here or up 
there.  
        MR. INSLEE.  Okay.  Thank you very much. 
        MR. WHITFIELD.  Thank you, Mr. Inslee.  
        One other question I'd like to ask you, Mr. Friedman.  Of the 
total computer systems at DOE, it is my understanding that 75 
percent of those computer systems are controlled by contractors.  
So when we talk about improving cyber security at DOE we 
certainly have to have contractors on board, and it is my 
understanding from information we have that during last year's 
Inspector General's audit of the computer systems you determined 
that several contractors have refused to comply with the DOE 
cyber security requirements because they said it's not in the 
contracts.  Is that correct?  
        MR. FRIEDMAN.  That's correct, Mr. Chairman.  
        Specifically, there are requirements that have been established 
under the FISMA statute, which I described earlier.  Also, there are 
OMB requirements and extremely important benchmarks that have 
been established by the National Institute of Standards and 
Technology that are government-wide.  Unfortunately, they have 
not been incorporated in a lot of the contracts as a flow-down; and, 
as a consequence, when we have talked to the contractor people 
who, as you correctly characterize, control many of these systems, 
75 percent may be right.  I don't quibble with that.  I don't know if 
that's the precise number.  They push back and say we don't have 
to do that, and the reason we don't have to it's not specifically 
required in our contract.  
        That gets to sort of a fundamental concern we have with regard 
to governance in the Department of Energy.  There are a number of 
proposals to change the way we govern our contractors; and I am 
concerned that if we relax too many of the specifics when we have 
problems, the contractors come back to us and say, well, you didn't 
specifically require me to do X, Y, and Z.  Therefore, I don't feel 
the need to comply.  
        MR. WHITFIELD.  Well, in your discussions with the 
appropriate people at DOE who have jurisdiction over these 
contracts, are you satisfied with their explanations as to why they 
are not requiring --
        MR. FRIEDMAN.  Well, the CRD, which is the contractor 
requirement document, which is incorporated in the contract, is 
very general and basically says use prudent judgment and be 
responsible.  However, the situation is much more complex than 
that, and requires prudent judgment in the way you institute the 
cyber security program.  
        But the specifics presently are missing.  We have raised that 
issue with Department managers on a number of occasions, and I 
think the response has been less than overwhelming.  Hopefully, 
perhaps as a result of this hearing and your interest and the interest 
of the subcommittee, there will be more active participation in this 
program. 
        MR. WHITFIELD.  They certainly have the authority to require 
that these security requirements be met, correct?
        MR. FRIEDMAN.  Well, I am not sure at this point whether, 
unless there was agreement on both sides, it wouldn't be a 
unilateral change to the contract.  It would require a contractor 
commitment.  However, for a new contract, certainly they could be 
made. 
        MR. WHITFIELD.  If I am offering a contract and you're 
responding, then I want what I want.
        MR. FRIEDMAN.  Correct. 
        MR. WHITFIELD.  So, obviously, that's something we are going 
to continue to look at.  Because that is ridiculous that that not be 
required and in these contracts unless there is some overwhelming 
reason why it should not be done.  
        Anyone else?  Okay.  Okay.  Well, that concludes the 
testimony of the first panel.  
        Now, Mr. Friedman, we genuinely appreciate you being with 
us today.  It is my understanding you have an obligation that you 
have to go off to.  So we would ask Mr. Podonsky to please stay.  
        We do intend to go into Executive Session as soon as we finish 
with the second panel, and there are three witnesses on the second 
panel.  So we don't anticipate it will take us too long.  But we do 
want to hear their testimony.  We have some questions for them.  
So thank you for being with us, and we look forward to seeing you 
in Executive Session.  
        MR. FRIEDMAN.  Let me say I appreciate your indulgence, and I 
apologize.  My Principal Deputy, Herb Richardson, is here.  He 
speaks for me eloquently, and he will participate in the subsequent 
session. 
        MR. WHITFIELD.  We look forward to seeing Mr. Richardson 
there.  Thank you.  
        Okay, first panel is dismissed.
        At this time, I'd like to call up the second panel.  
        On the second panel, we have Mr. Tom Pyke, who is the Chief 
Information Officer at the Department of Energy.  We have the 
Honorable Linton Brooks, Administrator for the National Nuclear 
Security Administration; and we have the Honorable David 
Garman, Under Secretary for Energy, Science and Environment at 
the Department of Energy.  
        I want to welcome all of you.  We appreciate your being with 
us on this important subject matter.  
        As you know, this is the Oversight and Investigations 
Subcommittee, and it is our tradition to take testimony under oath.  
Do any of you object to testifying under oath?  Do any of you have 
any legal counsel that you would like to be with you?  If you 
would raise your right hand.
        [Witnesses sworn.]
        MR. WHITFIELD.  You are now under oath.

TESTIMONY OF TOM PYKE, CHIEF INFORMATION OFFICER, U.S. DEPARTMENT OF ENERGY; 
THE HONORABLE LINTON BROOKS, ADMINISTRATOR, NATIONAL NUCLEAR SECURITY 
ADMINISTRATION; AND THE HONORABLE DAVID K. GARMAN, UNDER SECRETARY FOR ENERGY, 
SCIENCE, AND ENVIRONMENT, U.S. DEPARTMENT OF ENERGY  

        MR. WHITFIELD.  Mr. Pyke, I'll recognize you for your 
5-minute opening statement. 
        MR. PYKE.  Good afternoon, Mr. Chairman.  My name is Tom 
Pyke.  I am the Chief Information Officer of the Department of 
Energy.  I am pleased to be here today to share with the committee 
a summary of the actions that the Department of Energy has taken 
to strengthen our cyber security posture.  
        The Department of Energy takes cyber security very seriously.  
Our senior management team is working together to ensure that we 
are taking all appropriate actions to protect our information 
systems as well as the information processed on these systems.  
We are taking a risk-based approach, managing the overall risk and 
the risk that still remains after all appropriate managerial and 
technical controls have been applied.  This risk is sometimes called 
residual risk.  
        The Department's cyber security program is guided by the 
Federal Information Security Management Act, known as FISMA, 
including its emphasis on certifying and accrediting every 
information system before it is placed into operation.  We are also 
guided by the actions and products of the Committee on National 
Security Systems and by the National Industrial Security Program 
Operating Manual for national security systems. 
        Based on a risk assessment and a system security plan, each 
system has controls applied to ensure availability, confidentiality, 
and integrity of each system and the information on that system.  
These controls are tested to ensure they are working properly.  
After the controls are applied, a statement of the residual risk is 
presented to an accrediting official.  This official makes the 
determination for the system to become operational based on the 
residual risk evaluation, taking into account the role of the system 
in supporting the agency's mission. 
        I would like to point out to the committee that there is no such 
thing as no risk and no such thing as perfect cyber security.  
Well-informed judgments have to be made as to the nature and 
amount of protection that is to be applied to each system and 
network, and that is a fundamental part of the certification and 
accreditation process.  We are also guided in managing cyber 
security by the Office of Management and Budget with its policy 
and by guidance issued by the National Institute of Standards and 
Technology.  
        Our cyber security program responds to risk assessments 
conducted within the bounds of our assessment of the current 
threats to our system.  The threat to our systems from outside our 
perimeter as well as from insiders is continually increasing.  The 
hackers and others intent on harming our systems or obtaining 
information from our systems are becoming smarter in their 
attacks.  The threat is especially challenging given the 
vulnerabilities in off-the-shelf operating systems and application 
software that we must use to support our mission.  This software is 
very complex, and vulnerabilities are continually identified over 
the lifetime of that software.  
        Although software vendors prepare and distribute software 
patches after vulnerabilities are identified, there is always a delay 
in preparing and distributing these software patches, creating a 
window of opportunity for attacks despite best efforts to maintain 
secure system configurations and despite best efforts to apply the 
software patches in a timely way.  
        I should also point out that software patches need to be tested 
first before they're applied to our systems to ensure they do not 
interfere with the systems' ability to meet mission requirements. 
        Our cyber security posture is bolstered by the testing we do 
during the certification and accreditation process as well as by 
systematic continuous vulnerability testing.  
        We also benefit significantly from the testing that the 
Department's Office of Inspector General conducts as a part of its 
financial and FISMA reviews, and we are also fortunate to have 
within the Department the Office of Security and Safety 
Performance Assurance, which conducts the red team attacks that 
you have been hearing about and penetration testing on our 
systems and networks to identify vulnerabilities as well as 
performing cyber security assessments and evaluations that are of 
great help to us.  
        The Department of Energy has extensive expertise in the area 
of cyber security, and we are devoting substantial resources to this 
important area.  The challenge in managing cyber security is for us 
to prioritize our efforts using a risk-based approach as we 
implement all the parts of a balanced cyber security program.  We 
need to be smart about how to apply our cyber security resources, 
both in what we do and in the relative priority we give to the 
various parts of this effort.  
        When I came on board at Energy at the end of November of 
2005, the Department had recognized the cyber security challenge 
it faced.  I have personally given cyber security the highest priority 
in the management of the Department's information technology.  
At that time, we had available a recently prepared Cyber Security 
Project Team report that you heard about earlier.  We had that in 
hand.  That summarized some of the kinds of action that needed to 
be taken to improve our cyber security posture.  
        At the direction of the Secretary and the Deputy Secretary, I 
led the development of the Department of Energy Cyber Security 
Revitalization Plan, which now provides the basis for the 
Department cyber security program.  The plan was developed 
under the oversight of an executive committee, which I chair, and 
which has as members the Under Secretaries, including the 
Administrator of the National Nuclear Security Administration, 
Ambassador Brooks, and the Under Secretary for Energy, Science, 
and Environment, Mr. David Garman, as well as the new Under 
Secretary for Science, Dr. Ray Orback, the Director of the Office 
of Security and Safety Performance Assurance, the Administrator 
of the Energy Information Administration, and a representative of 
the Department's Power Map Marketing Administration.  
        We have a Cyber Security Working Group that reports to this 
hearing committee that has coordinated the development of the 
Revitalization Plan and is actively involved now in coordinating 
the implementation of the plan.  
        In developing the Revitalization Plan, we went "back to 
basics," guided by FISMA and OME policy.  We considered the 
Department's mission and the way the Department is structured, 
and we considered the cyber security risks currently faced by the 
Department.  We factored into the plan the recommendations from 
the Cyber Security Project Team report.  
        Under the Revitalization Plan, my office, the Office of the 
Chief Information Officer, develops top-level cyber security 
policy, to be issued by the Deputy Secretary.  Our office issues 
guidance on issues--
        MR. WHITFIELD.  Mr. Pyke, excuse me for interrupting, but 
you have gone about 2 minutes over the 5 minutes.  If you 
wouldn't mind summarizing; we do have your testimony in its 
entirety, and I would appreciate it. 
        MR. PYKE.  After we had this top-level policy, the Under 
Secretary established policies and implementation plans for this 
part of the Department consistent with that policy and guidance; 
and the plan provides a basis for long-term strength in cyber 
security in the Department, with the significant beginning to be 
accomplished in the next 12 months.  We've already issued initial 
guidance in the critical certification and accreditation area. 
        I should say that it has been very important for us to continue 
to adjust our priorities and implement the Revitalization Plan based 
on our assessment of risk.  For example, during the last 3 months, 
we have given special attention to improving our ability to respond 
to increasingly more sophisticated cyber attacks.  The resources 
required to do so have necessitated changes in our schedule or our 
initial schedule for completing some other parts of the 
revitalization effort.  
        We would like to assure the committee, to which we have 
provided our current schedule, that we are working very hard and 
diligently in our area; and we are attempting to accelerate the 
completion of as many products as possible to the extent that we 
are able to do so. 
        MR. WHITFIELD.  Thank you very much, Mr. Pyke.
        [The prepared statement of Thomas N. Pyke, Jr. follows:]

PREPARED STATEMENT OF THOMAS N. PYKE, JR., CHIEF 
INFORMATION OFFICER, U.S. DEPARTMENT OF ENERGY 

        Good afternoon, Mr. Chairman.  My name is Tom Pyke.  I am 
the Chief Information Officer of the Department of Energy.  I am 
pleased to be here today to share with the Committee a summary of 
the actions the Department of Energy is taking to strengthen its 
cyber security posture.
        The Department of Energy takes cyber security very seriously.  
Our senior management team is working together to ensure that we 
are taking all appropriate actions to protect our information 
systems and the information processed on these systems.  We are 
taking a risk-based approach, managing the overall risk and the 
risk that still remains after all appropriate managerial and technical 
controls have been applied, often called residual risk.
 	The Department's cyber security program is guided by the 
Federal Information Security Management Act (FISMA), 
including its emphasis on certifying and accrediting every 
information system before it is placed into operation, by the 
Committee on National Security Systems (CNSS ), and by the 
National Industrial Security Program Operating Manual 
established by Executive Order 12820 for national security 
systems.  Based on a risk assessment and a system security plan, 
each system has controls applied to ensure availability, 
confidentiality, and integrity of each system and the information on 
that system.  These controls are tested to ensure they are working 
properly.  After the controls are applied, a statement of the residual 
risk is presented to an accrediting official.  This official makes the 
determination for the system to become operational based on this 
residual risk evaluation and the role of the system in supporting the 
Agency's mission.
        I would like to point out to the Committee that there is no such 
thing as "no risk" and no such thing as perfect cyber security.  
Well-informed judgments have to be made as to the nature and 
amount of protection that is to be applied to each system and 
network, and that is the nature of the certification and accreditation 
process.  We are also guided in managing cyber security by Office 
of Management and Budget (OMB) policy and by guidance issued 
by the National Institute of Standards and Technology (NIST).
        Our cyber security program responds to risk assessments 
conducted within the bounds of our assessment of the current 
threat to our systems.  The threat to our systems from outside our 
perimeter and from insiders is continually increasing.  The hackers 
and others intent on harming our systems or obtaining information 
from our systems are becoming smarter in their attacks.  The threat 
is especially challenging given the vulnerabilities in off-the-shelf 
operating system and applications software that we must use to 
support our mission.
        This software is very complex, and vulnerabilities are 
continually identified over the lifetime of that software.  Although 
software vendors prepare and distribute software patches after 
vulnerabilities are identified, there is always a delay in preparing 
and distributing these software patches, creating a "window" for 
attacks despite best efforts to maintain secure system 
configurations and despite best efforts to apply the new software 
patches in a timely way.  I should also point out that software 
patches need to be tested first before being applied to our systems 
to ensure that they do not interfere with the systems' ability to 
meet mission requirements.
        Our cyber security posture is bolstered by the testing we do 
during the certification and accreditation process, and by 
systematic, continuous vulnerability testing.  We also benefit from 
the testing that the Department's Office of Inspector General 
conducts as part of its financial and FISMA reviews, and we are 
also fortunate to have within the Department the Office of Security 
and Safety Performance Assurance, which conducts Red Team 
attacks and penetration testing on our systems and networks to 
identify vulnerabilities, and performs cyber security assessments 
and evaluations.
        The Department of Energy has extensive expertise in the area 
of cyber security, and we are devoting substantial resources to this 
important area.  The challenge in managing cyber security is for us 
to prioritize our efforts using a risk-based approach as we 
implement all the key parts of a balanced cyber security program.  
We need to be smart about how we apply our cyber security 
resources, both in what we do and in the relative priority we give 
to the various parts of this effort.
        When I came on board at Energy, at the end of November 
2005, the Department had recognized the cyber security challenge 
it faced, and I have given cyber security the highest priority in the 
management of the Department's information technology.  We had 
a recently prepared Cyber Security Project Team report in hand at 
the time that summarized the kinds of actions needed to be taken to 
improve our cyber security posture.
        At the direction of the Secretary and the Deputy Secretary, I 
led the development of a Department of Energy Cyber Security 
Revitalization Plan, which now provides the basis for the 
Department's cyber security program.  This plan was developed 
under the oversight of an Executive Steering Committee, which I 
chair, and which has as members our Under Secretaries, the 
Administrator of NNSA and the Under Secretary for Energy 
Science, and Environment, as well as the Director of the Office of 
Science, the Director of the Office of Security and Safety 
Performance Assurance, the Administrator of the Energy 
Information Administration, and a representative for the 
Department's Power Marketing Administrations.  We have a 
Cyber Security Working Group that reports to the Steering 
Committee that has coordinated the development of the 
Revitalization Plan and is actively involved now in coordinating 
implementation of the Plan.
        In developing this Revitalization Plan, we went "back to 
basics," guided by FISMA, OMB policy, and NIST guidance.  We 
considered the Department's mission and the way the Department 
is structured, and we considered the cyber security risks currently 
faced by the Department.  We factored into the Plan the 
recommendations from the Cyber Security Project Team report.
        Under the Revitalization Plan, the Office of the Chief 
Information Officer (OCIO) develops top-level cyber security 
policy, to be issued by the Deputy Secretary.  OCIO issues 
guidance on implementing cyber security management, 
Department-wide, working with the Cyber Security Working 
Group in doing so.  Our office also leads the charge for awareness 
by everyone in the Department of the importance of each person's 
role in cyber security, and provides oversight of the entire 
Department-wide cyber security program.  We also regularly 
advise senior Department management of evolving threats and the 
best protection strategies to employ in implementing cyber security 
protections.
        Each of the Under Secretaries establishes policies and 
implementation plans for their part of the Department, consistent 
with the overall Departmental policy and guidance.  They each 
tailor their implementation to meet the needs of their respective 
programs.  OCIO works with the entire Department in preparing 
reports of cyber security status, as required under FISMA, and 
OCIO also conducts compliance reviews relative to policy and 
guidance to ensure that adequate protection of our information and 
information systems is in place.  The Office of the Inspector 
General and the Office of Security and Safety Performance 
Assurance each conduct appropriate oversight reviews and testing 
that help ensure that the cyber security program is working as 
intended.  The results of these reviews are expected to continue to 
be very important inputs to the Department as we continue to 
improve our cyber security program. 
        The Revitalization Plan identifies five high priority activities: 
certification and accreditation; use of an enterprise defense-in-
depth strategy, providing layered protection from the perimeter of 
our networks to our users; asset management, to ensure that all 
information technology assets are identified and managed well 
with secure configuration controls and timely software updates; 
network interconnection and segmentation; and education and 
awareness.  The major components of the revitalization process are 
identified as: planning, based on a common understanding of risk 
and threat, to ensure that cyber security is integrated through 
business practices and Under Secretarial missions; cyber security 
policy and guidance; architecture and technology that supports 
Department-wide implementation; common services that support 
the entire Department, including incident management, education 
and awareness training, and asset management tools and support; 
and performance measurement, providing a clear and consistent 
means to measure the cyber security status of the Department.
        The Plan is intended to provide a basis for a long-term, 
strengthened cyber security program, with a significant beginning 
to be accomplished in the first twelve months, by February 2007.  
The highest priority activities, based on risk, are receiving 
attention and resources first, even as detailed planning and 
implementation continues throughout the Department.  We have 
already issued revised certification and accreditation guidance, and 
we have initiated a corporate asset management process.  Network 
segmentation plans have been developed and implementation has 
begun.  We have organized a Department-wide cyber forensics 
team that is responding daily to cyber attacks, with excellent 
results.  Cyber security awareness for all employees has been jump 
started with special bulletins containing detailed guidance, 
focusing on social engineering attacks, against which everyone's 
participation is essential.
        The Secretary has said that "revitalizing our cyber security 
program is the best way to ensure that we continue to protect our 
Department's assets and the nation," and he has charged the 
Department's leadership to commit ourselves to this task.   We are 
all working together to move as quickly as we can to improve the 
Department of Energy cyber security posture, and I believe our 
progress is now being felt through an improved ability to thwart 
attacks and to bring all the necessary resources to bear quickly and 
effectively as needed.  We understand that cyber security is a 
never-ending process, and we are committed to maintaining a high 
level of vigilance to ensure that the Department is able to carry out 
its mission without disruption caused by cyber threats.   I would be 
pleased to respond to any questions you may have. 

        MR. WHITFIELD.  Mr. Brooks, you are recognized for 5 
minutes. 
        MR. BROOKS.  Thank you, Mr. Chairman.  As Mr. Pyke's 
statement made clear, we have to focus on and use a risk-based 
approach.  And the highest risk, of course, would be compromised 
classified material.  I recognize the hearing is focused primarily on 
threats to unclassified material, but it is important to note that we 
have to focus on both.  I am confident that our classified material is 
secure, but we need to focus on both unclassified and classified. 
        I'd like to highlight several specific actions that we are taking 
to strengthen cyber security.  First--and this does apply to 
classified--is the conversion to diskless work stations.  We will be 
completing that by the end of 2008.  About 45 percent of our 
classified work stations are operating without disks, and that will 
increase our ability to transmit both classified and other forms of 
sensitive information around the Department.  
        Secondly, we are working on continuous asset monitoring 
systems.  That lets us improve real-time security monitoring of 
both classified and unclassified networks and lets us increase the 
efficiency and the accuracy of our reporting.  
        Several of the members of the committee have stressed the 
very large number of computers that we have spread out over a 
very large number of organizations.  If we do not have a solid 
handle on what we have, no management system will work.  And 
we have spent, with Mr. Pyke's organization, the last 18 months 
testing and evaluating a series of offerings.  We've selected a 
customized architecture and last week our Pantex plant became the 
first DOE site to successfully implement the system.  
        Third, we are giving increasing attention to deployment of 
encryption for secure communication over unclassified networks.  
The fragmented nature of the Department means that we 
sometimes act inefficiently, so we've worked together with 
Mr. Pyke's organization to combine our licenses into a single 
agreement for various commercial encryption software to save 
about a million dollars.  
        In addition, we are implementing encryption on laptops in a 
way similar to that described by the Inspector General. 
Fourth, we're working hard on training.  Training and 
awareness are the keys to everything else.  Mr. Pyke sets the 
example by conducting training at pop-up meetings, and at the 
senior leadership meetings of the Department, and we're 
attempting to emulate that in a variety of ways.  In addition to 
these, we've developed a comprehensive set of policies to 
standardize configuration that gives our individual sites a uniform 
set of risk management tools.  We are trying to use our metrics not 
just to feed in to the various reports that Mr. Pyke mentioned, but 
to improve internally.  We are developing continuity of operation 
plans and we are continuing to focus on inventory. 
        Working with Mr. Pyke, we are making good progress--that is 
a statement about the progress, not about where we are--toward 
both better management of risk and more efficient use of 
resources.  I believe every member of the Department's leadership 
is committed to both improving cyber security and to the security 
of our information.  
        The following is not in my prepared statement.  I know we will 
be talking about this more in the classified closed session.  But I do 
want to note that the personnel information which he referred to is 
not what we would normally call personnel files.  It is a list of 
names, and Social Security numbers.  I don't mean to minimize the 
seriousness, but it might very well have been something else, but 
that's what it was and we can talk about that in more detail in the 
closed session.  
        Thank you, sir. 
        MR. WHITFIELD.  Thank you.  
        [The prepared statement of Hon. Linton Brooks follows:] 

PREPARED STATEMENT OF THE HON. LINTON BROOKS, UNDER SECRETARY OF ENERGY FOR 
NUCLEAR SECURITY AND ADMINISTRATOR, NATIONAL NUCLEAR SECURITY 
ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

        Good morning, Mr. Chairman, thank you for the opportunity to 
appear before you today in support of the Department's efforts to 
strengthen our cyber security.
        The National Nuclear Security Administration Act (NNSA) 
established the NNSA within the Department of Energy (DOE) 
with the mission to strengthen the United States' security through 
the military application of nuclear energy and by reducing the 
global threat from terrorism and weapons of mass destruction.  As 
Administrator, one of my duties is the security of NNSA's 
information systems and networks.
        NNSA is responsible for the majority of the classified networks 
within the Department and we take this responsibility very 
seriously.  Our classified networks receive our highest priority and 
we have taken all possible steps to ensure their security.  I am 
confident of the security of our classified systems and networks 
and to date we have been successful in preventing any breach in 
security.  However, we must maintain constant vigilance over the 
systems entrusted to us and it is essential that we continue the 
improvements underway to upgrade the infrastructure and improve 
integration across the Federal complex.  Only by doing so can we 
ensure the long-term cyber security of the nuclear weapons 
complex.
        NNSA is dependent upon information and upon the systems 
that create, process, store, and communicate information to carry 
out our missions.  But the management of the security for these 
systems must rely on a comprehensive understanding of systems, 
in depth analyses of every new attack, and a timely determination 
of the best approach to mitigate the efforts of intruders.  Doing so 
requires a substantial commitment of resources-- both financial and 
intellectual-and a coordinated effort across all elements of the 
Department. 
        I look to Mr. Tom Pyke, Chief Information Office (CIO) for 
the Department, to integrate our Departmental efforts.  NNSA 
supports the Federated approach and is applying that approach 
across the NNSA complex.  We have engaged each of our 
laboratories, plants, sites and offices in assessing the priorities that 
must be addressed in the future.  These priorities are based on the 
risks at each site, as each site has different types of information it 
must protect and transmit. 
        Cyber security threats are increasing in complexity and number 
and we are working to strengthen our cyber security posture.  We 
continue to monitor all aspects of cyber security throughout the 
NNSA complex and to apply risk management to balance cyber 
security issues with available budget resources.  NNSA, with 
leadership from the CIO, is working closely with the Office of 
Security and the Office of Counterintelligence to maintain 
awareness of cyber security threats.  We are jointly working to 
maximize our efforts and resources to ensure a secure environment 
for the transmission and storage of our information.  
        Today, I would like to highlight four specific efforts that 
benefit the department and strengthen cyber security throughout 
the weapons complex: 
        Diskless Workstation Upgrades:  Plans are in place to convert 
the department's classified workstations to diskless operations. The 
plans support the completion of the conversion effort by the end of 
FY 2008 and as of the end of April 2006 over 45% of the 
Department's classified workstations were operating without disks. 
The ultimate success of the effort is tightly linked to the ability of 
the Integrated Cyber Security Initiative (ICSI) to implement a 
gateway to permit non-weapons data - both DOE and other agency 
data - to traverse the Department utilizing the Enterprise Secure 
Network.  Development work on the gateway, including a 
connection to SIPRNet, is expected to begin in FY 2007.
        Continuous Asset Monitoring System (CAMS):  CAMS has 
two overarching objectives: 1) to improve security monitoring of 
DOE's and NNSA's networks (both classified and unclassified) in 
near real-time as well as software patch management; and 2) to 
increase the efficiency and accuracy of congressionally-mandated, 
asset-based reporting. A joint NNSA-DOE team invested almost 
18 months testing and evaluating multiple vendors' offerings with 
the goal of selecting a common solution for both classified and 
unclassified operational environments, to minimize cost and 
standardize the system administration.  To meet the Agency's long 
term reporting obligations, a customized architecture was selected 
consisting of hardware, software and process solutions which will 
be implemented across the Department and will include all NNSA 
sites, labs, plants and offices.  
        Encrypted Communication:  With the support of Congress, we 
have accelerated deployment of enterprise encryption for secure 
authentication and communication.  We fully support the 
Department's move to purchase encryption software. Currently, 
NNSA and DOE have multiple contracts. An agreement is being 
negotiated where these licenses will be combined into a single 
agreement and upgraded to a new thin client version.  New licenses 
will be purchased at a reduced rate as needed.  This combined 
arrangement will ultimately save the Department over one million 
dollars in licensing and maintenance costs.
        Cyber Security Training: NNSA has partnered with DOE in a 
training working group that evaluates products and vendors 
training programs for all positions in the management and use of 
computing assets.  Training for our cyber security professionals is 
also key to raising awareness and acceptance of assessing and 
prioritizing cyber security risks at all sites.  
        NNSA has also developed a comprehensive set of cyber 
security policies that standardize the configuration of many of our 
systems and assists in fully documenting the risks associated with 
the certification and accreditation of our computing assets.   The 
policies we have directed fully implement national and federal 
policies in a graded risk management approach.  Site managers 
now have a uniform risk acceptance based process for assessing 
requirements and for implementing their cyber security programs. 
        NNSA is moving forward on multiple fronts to strengthen and 
ensure a safe information technology working environment.  We 
continue to report our Office of Management and Budget (OMB) 
cyber security metrics and actively use this information to improve 
program control and evaluation.  We continue to develop our 
continuity of operations plans as required by Departmental 
directives.  We have established a working group to improve our 
cyber security by establishing security configurations for each of 
the computer systems in use across our federal and contractor sites.  
NNSA is teaching classes in cyber security policy implementation 
that expand on the DOE information as required for our weapons 
complex.  Finally, we continue to support the Department to 
improve the inventory of our information systems. 
        Mr. Chairman, we are working diligently to maintain a secure 
environment for our information and that of the Department.  We 
are moving ahead, we are making progress, and with the Federated 
approach, and we will be able to better manage risk and the 
efficient use of resources.
        I look forward to your questions. Thank you.   

        MR. WHITFIELD.  Mr. Garman.
        MR. GARMAN.  Mr. Chairman, members of the committee, as 
you have heard from the others, cyber threats are on the rise and I 
cannot tell you that we can fully guarantee the protection of all of 
the data that resides on the system or our systems themselves.  
Moreover, given the evolving and dynamic nature of the threat, I 
believe it's unlikely that we will ever be fully satisfied with our 
cyber security posture.  However, the fact that we cannot achieve 
absolute enduring protection against all cyber threats must not 
deter us from undertaking serious sustained efforts to improve our 
cyber security posture.  
        The Secretary and the Deputy Secretary have made cyber 
security a priority shortly after they came to the Department.  They 
grasped the challenges that confronted us.  They recruited a new 
Chief Information Officer.  They established a Cyber Security 
Executive Steering Committee, on which I serve, along with the 
others you see here and more.  We've established the Cyber 
Security Working Group comprised of information technology and 
cyber security specialists to assist us in our responsibilities.  
        During the ensuing months we have developed and issued a 
cyber security revitalization plan that we are currently 
implementing, to put it bluntly and--you mentioned this earlier, 
Mr. Chairman--it is my view that we are not yet where we need to 
be.  But I believe we are far better off than we were a year ago as a 
consequence of these actions by the Secretary, the Deputy 
Secretary and the Chief Information Officer.  
        In addition to stressing the importance of cyber security to the 
assistant secretaries and office directors that report to me, I have 
met with the cyber security information and technology personnel 
who report to them to discuss and understand the particular 
challenges that they face.  We've also recently detailed a cyber 
security expert to my office to assist me in implementing the plan 
and identifying best practices for replication.  
        In addition to the efforts embodied in the Security 
Revitalization Plan, we've engaged in a number of activities that 
improves the Department's ability to protect our data.  For 
example, in 2005 the Office of Science initiated a cyber security 
site assistance visit program.  Cyber security specialists from the 
Office of Science, together with inspectors from the Office of 
Security and Safety Performance Assurance, are conducting, as we 
speak, cyber security reviews at various sites and national 
laboratories.  These visits are helping sites to identify and 
remediate potential weaknesses and risks and establish a consistent 
cyber security baseline.  
        To date, the Office of Science has conducted 10 such visits and 
will shortly expand coverage to facilities outside of their purview. 
        The Office of Environmental Management, meanwhile, has 
also made significant process in reengineering its own cyber 
security oversight process.  That office has developed several 
cyber security management applications, such as intrusion 
detection, monitoring capability, allowing them to identify 
foreign-based cyber attacks launched against EM facilities from 
the Internet, and risk assessment management systems which 
automate cyber security risk assessments in support of their 
certification and accreditation responsibilities.  Those are just some 
examples of our programs of active cyber security programs, and 
all are working collaboratively to implement relevant portions of 
the cyber security revitalization program plan at headquarters and 
in the field.  
        Now, this is very important.  We know that this is not a quest 
for an end point where we declare success but, rather, a continuous 
process where we strive to get ahead and stay ahead of our 
adversaries.  Just as we welcome the efforts of the Inspector 
General, the Office of Security and Safety Performance Assurance, 
and others to test and evaluate our success in this regard on an 
ongoing basis, we also welcome the efforts of this subcommittee as 
we work to manage cyber security risks in a cost-effective and 
responsible manner.  
        This concludes my testimony and I would, of course, be 
pleased to respond to any questions you have either today or in the 
future.  Thank you, Mr. Chairman. 
        [The prepared statement of Hon. David Garman follows:] 



PREPARED STATEMENT OF HON. DAVID K. GARMAN, UNDER SECRETARY FOR ENERGY, 
SCIENCE, AND ENVIRONMENT, U.S. DEPARTMENT OF ENERGY

        Mr. Chairman and Members of the Committee, I appreciate 
this opportunity to discuss the Department's efforts to strengthen 
our cyber security posture.
        We recognize the importance of providing adequate protection 
to our systems and our data, given the criticality of those systems 
and data to supporting our mission as well as the sensitivity of 
much of the data in our possession. As such, we continue to assess 
and evaluate our cyber security posture as it relates to the threat.
        Cyber security threats are on the rise.  I cannot assert that we 
can fully protect all our data on our systems today; however, we 
try.  Moreover, given the evolving and dynamic nature of the 
threat, it is unlikely that we will ever be fully satisfied with our 
cyber security posture.  However, we must not allow the fact that 
we cannot achieve absolute, enduring protection against all cyber 
threats to deter us from undertaking serious, sustained efforts to 
improve our cyber security posture.
        The Secretary and Deputy Secretary have made cyber security 
a priority.  Shortly after they came to the Department, they grasped 
the challenge that confronted us.  They recruited a new Chief 
Information Officer (CIO).  They established a Cyber Security 
Executive Steering Committee on which I serve, along with the 
Administrator for the National Nuclear Security Administration, 
the CIO, and others.  We have established a Cyber Security 
Working Group comprised of information technology and cyber 
security specialists to assist us in our responsibilities.  During the 
ensuing months, we have developed and issued a Cyber Security 
Revitalization Plan that we are currently implementing.
        To put it bluntly, while we are not yet where we need to be, I 
believe we are far better off than we were a year ago.  
        In addition to stressing the importance of cyber security to the 
Assistant Secretaries and Program Directors who report to me, I 
have met with the cyber security and information technology 
personnel who report to them to discuss the particular challenges 
that they face.  We have also recently detailed a cyber-security 
expert to my office to assist me in implementing the plan and 
identifying best practices for replication.
        Therefore, in addition to the efforts embodied in the Cyber 
Security Revitalization Plan, we have engaged in a number of 
activities that improve the Department's ability to protect its data. 
        For example, in 2005, our Office of Science initiated a cyber 
security Site Assistance Visit (SAV) Program. Cyber security 
specialists from the Office of Science, together with inspectors 
from the Office of Security and Safety Performance Assurance, are 
conducting cyber security reviews at various sites and national 
laboratories. These visits are helping sites to identify and remediate 
potential weaknesses, accept risks, and establish a consistent cyber 
security baseline. In addition, these visits serve to provide training 
to a cadre of cyber security personnel and help identify best 
practices.  To date, the Office of Science has conducted ten such 
visits and will shortly expand coverage to facilities outside the 
purview of the Office of Science.
        The Office of Environmental Management (EM) has also made 
significant progress in re-engineering its cyber security 
management oversight process.  EM has developed several cyber 
security management applications such as an Intrusion Detection 
Monitoring capability, allowing them to identify foreign-based 
cyber attacks launched against EM facilities from the Internet, and 
a Risk Assessment Management System, which automates cyber 
security risk assessments in support of their certification and 
accreditation responsibilities. 
        Those are just some examples.  All of our programs have active 
cyber security programs in place, and all are working 
collaboratively to implement relevant portions of the Cyber 
Security Revitalization Plan at Headquarters and in the Field.  We 
know this is not a quest for an end point where we declare success, 
but rather, a continuous process where we strive to get ahead, and 
stay ahead of our adversaries.  
        Just as we welcome the efforts of the Inspector General, the 
Office of Security and Safety Performance Assurance, and others 
to test and evaluate our success in this regard, we welcome the 
efforts of this subcommittee as we work to manage cyber security 
risk in a cost- effective and responsible manner.
  	This concludes my testimony.  I would be pleased to respond to 
any questions you might have, either today or in the future.  

        MR. WHITFIELD.  Thank you very much and we appreciate 
your testimony.  And, of course, it's not the purpose of this 
subcommittee to be critical all the time, but we do take our 
oversight responsibilities seriously and the information that I think 
all of us could agree to in many ways is that there is a lot still 
lacking on cyber security at DOE, and some people say that they 
may have one of the worst systems in the Government, but we may 
or may not agree with that.  
        But, Mr. Pyke, I know you have only been there since 
November of 2005, and you and Mr. Garman referred to the 
Revitalization Plan of 2006, and I know a great emphasis has been 
placed on that.  But in reviewing the plan, we had noticed that six 
of the corrective actions that were suggested out of many had 
already passed their dates, and the one on cyber risk assessment 
was supposed to have been completed on April 6th; and it's not 
completed and no new date has been set.  The DOE incident 
management was scheduled to be completed in May of 2006.  It's 
not completed and no new date has been set. 
        And I know that's easy for us to just pinpoint a few areas 
where you have not met your plan, but what do you have to say 
about that, Mr. Pyke?  I mean, these evidently were not that 
complicated because they were going to be completed in a couple 
of months.  And now that it's already gone over, and you are not 
meeting the goal.  
        MR. PYKE.  Mr. Chairman, as stated in my oral comments, my 
opening statement, it is essential that we continually adjust our 
priorities based on our current reassessment of risks.  We have 
adjusted and will continue to adjust or prioritize our schedule for 
completing the large number of products.  We made a lot of 
progress in the incident management area that will lead to a strong 
incident management guidance document and, as I said earlier, we 
have had to deal with increasingly sophisticated attacks and larger 
number of attacks over the last 3 months.  And I can assure you 
that we have learned from handling those attacks and we have 
already adjusted our incident management processes within the 
Department in a positive direction.  
        Likewise on risk assessment we are learning in the process, the 
products when they are produced will be strong, and we do intend 
to continue to adjust our schedule, as is indicated, and we believe 
we are being responsible in doing that. 
        MR. WHITFIELD.  So you are setting priorities in a different 
way than what it was originally set at?  
        MR. PYKE.  Yes, sir. 
        MR. WHITFIELD.  Now, Mr. Brooks had mentioned in his 
opening statement that we all view any breach to be a serious 
issue, particularly when personnel information is obtained by 
unauthorized sources outside the Government.  We also understand 
the national security issues involved.  
        But I want to ask you, Mr. Pyke--you are the Chief Information 
Officer--when did you first become aware that the information of 
1,500 people had been obtained by a third party?  
        MR. PYKE.  Two days ago, sir. 
        MR. WHITFIELD.  Two days ago. 
        MR. PYKE.  Although since I arrived at the Department and 
was informed of the kinds of attacks that we are under on a 
continuing basis, and I should say we were attacked several 
hundred thousand times each day by folks from outside the 
Department attempting to break through our perimeter.  The 
particular system that was involved here was protected by a 
firewall, and was protected by intrusion detection software.  It had 
other protective software; and despite that, a very sophisticated 
attack succeeded, and we are dealing with a very difficult situation 
which we'll expand on in Executive Session. 
        MR. WHITFIELD.  What is your understanding as to when 
someone at DOE was first aware of this information being 
obtained?  
        MR. PYKE.  I do not know--
        MR. WHITFIELD.  You found out 2 days ago. 
        MR. PYKE.  And that was about the time when a determination 
was--to my knowledge, when the first determination was placed in 
black and white on paper that this had happened after an extensive 
investigation.  That's my understanding. 
        MR. WHITFIELD.  Mr. Brooks, when did you find out?  
        MR. BROOKS.  Late September. 
        MR. WHITFIELD.  Now, this was--
        MR. BROOKS.  Now, with the recognition that, as Mr. Pyke 
says, this has been an ongoing event, but late September is when I-
-
        MR. WHITFIELD.  That's when you first found out that the 
information on 1,500 individuals had been obtained by an outside 
party. 
        MR. BROOKS.  Yes, sir. 
        MR. WHITFIELD.  Did you feel like you had an obligation or 
responsibility to report it to the Secretary or the CIO?  
        MR. BROOKS.  The CIO builds the wall.  Once somebody gets 
over the wall, it is a counterintelligence issue or potential 
counterintelligence issue.  Pretty much whenever I say the words 
counterintelligence, whatever I say next is a closed session issue.  
        There was a problem with fragmented responsibility--and as far 
as I can tell now, I was not aware, frankly, that the Secretary and 
the Deputy had not been informed.  And as far as I can tell, this is 
one of the consequences of the split counterintelligence 
organization, which the Administration has submitted legislation to 
correct.  It's a very important question, but I'd like to go into it 
more in closed session because I am afraid that the specifics could 
be in the areas we shouldn't talk about. 
        MR. WHITFIELD.  And, Mr. Garman, when did you become 
aware the first time?  
        MR. GARMAN.  June 7th. 
        MR. WHITFIELD.  June the 7th.
        MR. GARMAN.  Two days ago. 
        MR. WHITFIELD.  Okay. 
        MR. BROOKS.  In fairness, I should point out to the best of my 
knowledge all of the people involved are under my responsibility 
and not his.
        MR. WHITFIELD.  And it is my understanding that the Secretary 
did not know about this until a couple of days ago.  Is that your 
understanding, or do you know?  
        MR. BROOKS.  I think that's right. 
        MR. WHITFIELD.  Okay.  Who informed you about this breach, 
Mr. Brooks, or is that something--
        MR. BROOKS.  The Director of the NNSA counterintelligence 
organization. 
        MR. WHITFIELD.  Okay.  I have no other questions.  
        Mr. Stupak.
        MR. STUPAK.  Yes, thank you.  
        Mr. Brooks, whose responsibility is it to inform the Secretary?  
        MR. BROOKS.  That sounds like such an obvious, clear 
question, and I believe that one of the things we are learning from 
this is the answer isn't as clear as it should have been.  Because we 
treat these things as a counterintelligence issue under our current 
structure, which we proposed legislation to fix, you can get two 
answers to that.  It appears to me that each of the parts assumed 
that the other person was involved.  That's a preliminary 
assessment because I, just as the Secretary just learned about this 
this week, I just learned this week that the Secretary didn't know.  
        MR. STUPAK.  So who are the two people who were supposed 
to inform the Secretary?  
        MR. BROOKS.  We have under the present system an Office of 
Counterintelligence for the Department and an Office of Defense 
Nuclear Counterintelligence for the NNSA.  I am not trying to be 
unresponsive, but I am really worried that in trying to answer that 
question I am going to go into areas that I don't want to go, about 
where the data was and whose data it was and what we think 
happened.  I'd like to save that for the closed session if I may, sir.  
        MR. STUPAK.  Don't you have any responsibility to tell the 
Secretary?  
        MR. BROOKS.  I certainly wish I had, now that I know that 
nobody else did. I think that there are a number of us who in 
hindsight should have done things differently on informing.  As far 
as I can tell in terms of responding to the cyber incident, that was 
not done well.
        MR. STUPAK.  Who should have notified this committee?  
        MR. BROOKS.  Um, I am not sure, sir; and part of our problem 
is I can't answer that question.
        MR. STUPAK.  Will you get the answer to us?  
        MR. BROOKS.  Yes, sir.  I will.
        MR. STUPAK.  Why does it take the VA when they have a 
breach, 26.5 million people's information has been obtained, they 
let us know in about 3 weeks.  It's been at least 8 months and DOE 
doesn't let us know. 
        MR. BROOKS.  I'll find out, sir.
        MR. STUPAK.  You didn't hold anyone accountable for this. 
        MR. BROOKS.  When I figure out what was done wrong and by 
who, if anybody, then I'll be able to answer that.  I am really 
reluctant to answer it in the absence of fully understanding what 
happened.
        MR. STUPAK.  If you said to the Chairman you are going to 
build this wall, right, to protect our cyber security, right?
        MR. BROOKS.  Yes, sir.
        MR. STUPAK.  Don't you think you should have told Mr. Pyke, 
who is your Chief Information Officer, about this?  
        MR. BROOKS.  Mr. Pyke was not in the Department at the time 
this incident happened.
        MR. STUPAK.  Mr. Pyke has been there for some time.  You 
have known since late September.  So when were you going to tell 
your Chief Information Officer, who is supposed to know how to 
build that wall.  How does he build the wall if you withhold 
information from him?
        MR. BROOKS.  I will let Mr. Pyke speak for himself on what he 
knows.  He is very familiar with the specifics of the--more familiar 
than I with the specifics of the incident.
        MR. STUPAK.  I thought he testified it was only 2 days ago 
when Mr. Pyke found out. 
        MR. BROOKS.  What the content of the data was, but you 
protect the data without regard to its content, and whatever is 
sitting on a system.
        MR. STUPAK.  If he doesn't know where the contact is, he 
doesn't know where the hole in the wall is. 
        MR. BROOKS.  I'll defer to Mr. Pyke.  
        MR. STUPAK.  Before I go there, did you tell your previous CIO 
officer, then, that you knew since September--Mr. Pyke's been 
here a couple of months--did you tell the other CIO officer?  
        MR. BROOKS.  I did not.  It was my understanding at the time 
that the organizations had shared that information, but I'll have to 
answer that for the record, Mr. Stupak.
        MR. STUPAK.  Okay.  Mr. Pyke. 
        MR. PYKE.  Soon after I arrived at the Department of Energy, I 
was briefed on the current state of cyber security, including a 
number of very sophisticated attacks that were being made, which 
will be the subject of discussion in closed session today.  
        MR. STUPAK.  Were you told--
        MR. PYKE.  I said a few minutes ago the so-called breach was 
in the context of very sophisticated attacks that went through full 
protective measures that were state of the art at the time, and that 
for the most part the Government, and the private sector are state 
of the art today.  We're fortunate in having still additional 
protective measures in place without which we would not know 
about this incident.  We'll discuss that in closed session.  I did not 
know until June 7th, 2 days ago, that a particular file had been 
exfiltrated or sent out during one of those attacks. 
        MR. STUPAK.  How do you protect the information in that file if 
you don't know the file has been breached?  How do you know if 
your security system--how do you know why--if your security 
patches are working if you don't know which file or which 
network has been breached?  How do you protect that file, then?  
        MR. PYKE.  We protect all files, in part depending on the nature 
of the system, the risk associated with it, the data and the function 
of the particular system.
        MR. STUPAK.  Obviously it didn't work here. 
        MR. PYKE.  We don't necessarily need to know the actual 
content of the file to provide appropriate protection.
        MR. STUPAK.  How do you protect what you don't know you 
lost?  How do you protect something after it is lost?  
        MR. PYKE.  Sir, as a part of our cyber security program, we 
apply a wide-range management and technical means in order to 
protect the data.  
        MR. STUPAK.  I understand all of that, but how do you protect 
something if you don't know it's lost?  
        One part knew you lost it 8 months ago, you knew you lost it 2 
days ago.  How do you protect it if you don't know it is lost?  How 
do you know your system is working properly if you don't know 
it's lost?  
        MR. PYKE.  We'll discuss the details in closed session, sir.  The 
determination that anything might have been lost was a long 
complex process.  It deals with the state of the art of cyber security 
protection.
        It's not a simple case.
        MR. STUPAK.  It's not a simple case of having to know the 
information that was lost.  It's a simple case of you're supposed to 
have a security system.  It was breached.  It's not necessarily the 
information which, you know--it is the fact that you were breached 
and no one tells you for 8 months; and what the information is and 
the extent of that security, that's a different issue.  The issue is you 
have the responsibility for cyber security.  Something was 
breached, you don't even know about it. 
        MR. PYKE.  Mr. Stupak, it would have been very helpful for my 
job to know that that file had been breached and had gone outside.  
However, one of the things I learned--in fact, one of the reasons I 
came to the Department of Energy was to try to strengthen cyber 
security because it was receiving, like many organizations, 
increasingly sophisticated attacks which in part resulted in the loss 
of this file.
        MR. STUPAK.  Maybe we should start with information sharing 
between each part of DOE.  
        Yes, sir.  Mr. Brooks. 
        MR. BROOKS.  We can go into this in a little more detail, but I 
believe that we have given you a misunderstanding.  It is 
Mr. Pyke's systems that told us about the file.  We have a better 
answer than we have given you, although not a perfectly 
satisfactory answer, but I really need to do this in closed session, 
sir.
        MR. STUPAK.  Okay. 
        MR. WHITFIELD.  Mr. Burgess.  
        MR. BURGESS.  Thank you, Mr. Chairman.  I think we are 
probably all anxious to get to closed session now, so I'll be pretty 
brief.  I wanted to ask a few more questions about the issues that 
came up to the previous panel on sequestration on the encryption.  
        Neither member of the other panel really could address what 
the cost would be for going to a fully sequestered and encrypted 
system.  Does anyone on this panel have a concept of the cost 
involved, the budgetary requirement to go to a system that employs 
full encryption sequestration?  
        MR. PYKE.  Mr. Burgess, segmentation of networks and 
sequestering data, if you like, as well as encryption are two 
techniques that are already being applied within the Department in 
protecting data as a part of the total package of cyber security 
projections.  As you heard earlier, we make extensive use of 
encryption software appropriate for protecting information, and we 
do plan to expand that use.  The issue here is not one of resources.  
In fact, in terms of resources, although we can always use more in 
cyber security, it's a question of applying the resources in a 
prioritized way and smart way.  We are expanding our use of 
encryption.  We've already used some of it in terms of 
segmentation.  We have taken significant steps to segment our 
networks in the last several months, and we are continuing to do 
even more of that.
        MR. BURGESS.  Are you satisfied that you are doing all you can 
to rapidly deploy encryption throughout your Department?  
        MR. PYKE.  I am never satisfied, sir.  We always are working, 
attempting to work faster and to get more protections in place as 
quickly as we can.  
        MR. BURGESS.  Mr. Chairman, I think in the interest of going 
into closed session, I am going to yield back.  I have some other 
questions. 
        MR. WHITFIELD.  Ms. DeGette from Colorado.
Ms. DeGette.  I'll be brief as well.  I want to ask, Ambassador 
Brooks, you said you knew about this breach 8 months ago, 
correct?  
        MR. BROOKS.  Yes, ma'am.
        Ms. DeGette.  Did you inform the 1,500 people who were 
targets of this breach that their data had been breached, their 
information had been breached?  
        MR. BROOKS.  This is going to sound like a strange answer.  I'd 
like to answer that in closed session.  The answer is no.  I'd like to 
answer why in closed session.  
        Ms. DeGette.  I was going to say I don't think that's classified 
whether you informed them or not.  And so you'll talk about why 
in the closed session.  
        Do you have concerns about the safety of those individuals?
        MR. BROOKS.  No, ma'am.
        Ms. DeGette.  And I suppose you'll tell me about that in closed 
session, too. 
        MR. BROOKS.  Yes, ma'am.  I will.
        Ms. DeGette.  I am going to wait until closed session. 
        MR. WHITFIELD.  Mr. Inslee?  No.  
        Mr. Walden is recognized.  
        MR. WALDEN.  Thank you, Mr. Chairman.  
        Mr. Pyke, we've learned in testimony from the Inspector 
General's Office that as many as 50 percent of the cyber security 
incidents at DOE were not reported to law enforcement officials, 
which is a requirement.  What's been done to ensure that all 
reportable cyber security incidents at DOE are reported to the 
authorities?  
        MR. PYKE.  Mr. Walden, we have policies and procedures in 
place that require reporting of incidents and we have criteria that 
we apply, that are supposed to be applied, throughout the 
Department for determining which would be reported within the 
Department as well as to outside law enforcement as necessary.  
Whenever anything happens like that, when we become aware of it 
as part of our compliance monitoring of our policies, we take 
action in order to shore it up.  I've been pleased with the amount of 
incident reporting that I'm aware of, for example, in this fiscal year 
it--we have seldom learned of incidents after the fact that should 
have been reported. 
        MR. WALDEN.  So what you're saying is what the Inspector 
General reported to us is no longer the case. 
        MR. PYKE.  What I am saying is the trend is in the right 
direction, and I believe the people are being more diligent in 
reporting of incidents.  
        MR. WALDEN.  So the Inspector General indicated 50 percent 
of the cyber security incidents were not reported to law 
enforcement.  What would you say that percentage is today, then?
        MR. PYKE.  Sir, I have no idea.  I am aware of only a very 
small number of cyber security incidents that we've learned about 
significantly after the fact, beyond the reporting requirements, and 
that have been entered in and reported at that time.  It is hard to 
tell--it is hard to know what you don't know.  And I am afraid--and 
I agree with the Inspector General that folks may have a tendency 
to try not to report things because they think there might be a 
stigma associated with reporting incidents.  In a number of cases 
these incidents occurred despite all the proper protections being 
provided.  I do not know how many incidents are not being 
reported. 
        MR. WALDEN.  It could be the 50 percent the inspector 
references.  
        MR. PYKE.  I believe based on the data I do have of what we've 
learned after the fact of incidents that should have been reported, I 
have seen a relatively small number of such incidents.  
        MR. WALDEN.  The data on these individuals, 1,500 individuals 
who work for the Department of Energy, that was taken, can you 
describe for us the content of those data?  Social Security numbers; 
were they personnel files, personal addresses?  
        MR. BROOKS.  They did not have personal addresses.  May I 
consult with somebody for a moment?  
        MR. WALDEN.  Certainly.  
        MR. BROOKS.  Name, Social Security number, a code which 
indicates who they worked for, a second code which indicates if 
they were a subcontractor, the majority of these are contractor 
employees; a code which either had the letter L or Q, the level of 
clearance, those are the two DOE clearances; and a column called 
status, which in every case said "continue."  What this appears to 
have been was the list of routine people being processed for update 
of clearance.  
        There was no home information, there was no personnel 
file-type information, there was no health information.  There was 
nothing that would, from the paper, let you know where these 
people lived or worked.  Although the particular code that is not 
particularly sensitive, it's just a way you put that in smaller boxes.  
        MR. WALDEN.  With other search engines--
        MR. BROOKS.  That's the information.  
        Ms. DeGette.  Will the gentleman yield?  
        Ambassador Brooks, if somebody got that information from 
your file; your name, your Social Security number, your security 
clearance, everything else, and Mr. Walden is right, you can just 
go on other search engines, but even if you didn't, wouldn't you be 
a little concerned if nobody told you that for 8 months?  
        MR. BROOKS.  Of course I would.  
        Ms. DeGette.  Thank you.  
        MR. WALDEN.  Reclaiming my time.  
        What is the protocol for your agency where you have a breach 
of personnel records?  Are you required to notify the individuals 
within a certain period of time, or do you have any rules or 
regulations?  
        MR. BROOKS.  We have no formal rules.  This is an issue of 
good management and our obligation to people.  It's not an issue 
of regulation, as far as I can tell.  I want to be very clear.  There is 
a reason we have waited and I will talk about that more in closed 
session.  I don't want to suggest, and I apologize to your colleague 
if I may have suggested, that I don't think this is important.  We 
had a reason for doing what we have done.  
        MR. WALDEN.  We look forward to hearing that, obviously, in 
the closed session.  
        I guess the other part of this though, does anybody get in 
contact with, for example, the credit agencies to make sure that 
these people's data, that somehow they aren't becoming victim of 
some sort of ID theft?  
        MR. BROOKS.  The practice of the Federal government has 
been to notify individuals and provide them a mechanism for 
verifying that on their own.  Individuals have certain legal rights, 
and the Department will follow the standard practice.  
        MR. WALDEN.  I suppose, Mr. Garman, you are the Deputy 
Secretary, correct?  
        MR. GARMAN.  No, sir.  I am the Under Secretary for Energy 
and Environment.  
        MR. WALDEN.  So do you have jurisdiction over the personnel 
side of this?  Does anybody have jurisdiction over this issue?  
        MR. BROOKS.  I think to the extent that anybody does, I do, 
although there are legal implications.  
        MR. WALDEN.  I spent some time with the Secretary of Veteran 
Affairs listening to him describe what his agency went through, 
and how he responded to protect the veterans, and the meeting with 
the security agencies, or, excuse me, the credit rating bureaus.  His 
first goal, he told me, was to protect the veterans and their records.  
        MR. BROOKS.  My understanding is that was somewhat more 
extensive data.  
        MR. WALDEN.  Of course it was.  In the millions, we know 
that.  
        MR. BROOKS.  I mean, on each individual.  
        MR. WALDEN.  I see what you're saying.  But when it comes to 
in terms of identity theft, my name and my Social Security number 
gets somebody probably a cup of coffee or two and can really mess 
up my credit.  
        Given your cyber ability, do you have any knowledge that 
anybody has manipulated this data, or do you track that?  
        MR. BROOKS.  To the best of my knowledge.  I'd rather not go 
beyond what I'm about to say in open session.  To the best of my 
knowledge, we have absolutely no evidence that anybody has done 
anything with this.  I have a little bit of a basis for that statement, 
not a huge basis.  I will talk more in closed session.  
        MR. WALDEN.  Mr. Pyke, it's my understanding that many of 
the successful computer intrusions at DOE could have been 
avoided if they applied available network security patches and use 
of effective passwords.  However, the failure to apply security 
patches and the use of common passwords continues to be a 
problem at the Department of Energy.  
        I understand 2 months ago several employees at DOE were 
targeted with an e-mail that successfully infected their computers 
with the Trojan Horse program that would have been prevented if 
DOE had provided current security patches.  Can you tell us how 
you'll ensure that security patches and effective passwords will be 
implemented?  
        MR. PYKE.  Mr. Walden, we are working to improve the way 
software patches are tested first and then distributed and applied to 
all systems, as I mention in my statement, and we learn from each 
incident, each experience that we have.  Fortunately, the software 
patch protection is, again, one way of protecting systems, and in 
that particular case we were able to protect the systems and the 
data using other cyber security techniques that were applied at that 
time.  
        MR. WALDEN.  In the Department of Interior a Federal judge 
has interceded because of the lack of security in some of their data 
files and has from time to time literally shut down the entire e-mail 
and network system for the Department of Interior.  It seems to me 
the Department of Interior has far less critical data to the country's 
security perhaps in some areas than your agency.  
        MR. PYKE.  Sir, you are right on target.  System security 
configuration and system software patch management are key parts 
of cyber security.  
        MR. WALDEN.  So you can understand our concern, and we 
share yours, and hopefully together we can get this cleaned up.  
        MR. WHITFIELD.  Thank you, Mr. Walden. 
        Mr. Inslee.  
        MR. INSLEE.  No questions.  
        MR. WHITFIELD.  Mr. Barton.
        CHAIRMAN BARTON.  Thank you, Mr. Chairman.  I apologize 
for having to leave.  I had to go give a presentation at a conference, 
so I missed some of it.  Some of what I say or ask I am sure is 
going to be redundant, but it probably won't hurt to have it said 
again.  
        Mr. Pyke, what are your duties as Chief Information Officer at 
the Department of Energy?  
        MR. PYKE.  Mr. Chairman, I am responsible for the 
management of information technology throughout the 
Department, including ensuring that good management practices 
are provided, that standards are applied in the appropriate way, that 
capital investment decisions relative to information technology are 
being made in a systematic way, and using all necessary 
information.  
        I am responsible for operations of headquarters systems, and 
increasingly we are putting into place standardized systems with 
strong cyber security for everyone associated with headquarters, 
and, very importantly, I am responsible for cyber security for the 
Department.  
        CHAIRMAN BARTON.  So even though it says information, you 
are not responsible for disseminating information, you are 
responsible for basically coordinating and protecting the 
information from falling into the wrong hands; that includes cyber 
security.  
        MR. PYKE.  Yes, sir.  
        CHAIRMAN BARTON.  What is the interrelationship with your 
position and the National Nuclear Security Administration and Mr. 
Brooks?  Do you all have a co-equal, or is he in his own little 
sphere?  How does that work?  
        MR. PYKE.  If I may address that relative to cyber security.  As 
a part of the revitalization effort I have led over this last 6 months, 
we have established a structure, working together with the under 
secretaries and with me, in which our office establishes top-level 
policy.  We issue guidance, and we work with the under secretaries 
as they apply that policy and guidance in a way appropriate to each 
of the parts of the organization that they are responsible for.  
        They adapt it, they apply it.  They are responsible to take into 
account the risk associated with each of their organizations in 
determining how best to apply the top-level guidance.  
        CHAIRMAN BARTON.  In your conduct of your office, if you 
found something askance in Mr. Brooks' administration, can you 
tell him he has to do something?  You can inform, advise, but I 
don't believe --
        MR. PYKE.  We are partners, for example, in the area of cyber 
security.  We each have a part of the role to carry out, and I can 
certainly advise him if I learn of something. 
        CHAIRMAN BARTON.  The short answer is no.  You can't make 
him do anything.
        MR. PYKE.  No, sir. 
        CHAIRMAN BARTON.  Mr. Brooks, how long have you been the 
Administrator in NNSA?  
        MR. BROOKS.  Since 2003.  I was acting as Administrator for 
several months before that.  
        CHAIRMAN BARTON.  Now, my understanding is as 
Administrator, you are the number one manager at that agency; is 
that correct?  
        MR. BROOKS.  Yes, sir.  
        CHAIRMAN BARTON.  And you're supposed to know everything 
that's going on; is that correct?  
        MR. BROOKS.  Conceptually, yes, sir.  
        CHAIRMAN BARTON.  Conceptually.  Who do you report to, if 
anybody?  
        MR. BROOKS.  I report through the Deputy Secretary to the 
Secretary.  
        CHAIRMAN BARTON.  Report through the Deputy Secretary to 
the Secretary.  
        MR. BROOKS.  Yes, sir.  
        CHAIRMAN BARTON.  How often do you meet with either or 
both of those gentlemen?  
        MR. BROOKS.  Daily, every other day.  It varies.  The average 
is probably once or twice a day.  Some days much more, some 
days not.  
        CHAIRMAN BARTON.  When you are having these daily or 
every-other-day meetings, is there a formal agenda, kind of a 
routine agenda, and then special events?  Is it informal, whatever 
you want to talk about or they want to talk about?  
        MR. BROOKS.  Normally it's informal.  Normally it's on a 
particular topic that one or the other of us wants to talk about.  We 
also collectively, the leadership of the Department, meet with the 
Secretary every Monday morning, and that is a go-around-the-
table.  We also have another weekly meeting once again involving 
the leadership of the Department with the Deputy Secretary that 
does have a structured agenda.  
        CHAIRMAN BARTON.  Now, are there any classifications of 
information that you have access to that they don't?  Are they 
cleared to know any and everything that you know?  
        MR. BROOKS.  Yes.  I am trying to think through some of the 
intelligence compartments.  Yes, there is nothing that I am cleared 
to know that they are not cleared to know.  
        CHAIRMAN BARTON.  Now, it is public knowledge, at least in 
this hearing room, unfortunately outside the hearing room, that 
back in September we know from the testimony of the prior 
witnesses that Mr. Podonsky and his group conducted a red team 
exercise that penetrated some of the security protections at the 
Department of Energy, and you were made aware of that at that 
time; is that not correct?  
        MR. BROOKS.  That's correct.  
        CHAIRMAN BARTON.  Now, we also know that subsequent to 
that there was a real penetration of your administration.  
        MR. BROOKS.  That's correct.  
        CHAIRMAN BARTON.  And you were informed of that in 
September.  
        MR. BROOKS.  That's correct.  
        CHAIRMAN BARTON.  And you meet with the Secretary or the 
Deputy Secretary almost every day, and yet apparently you didn't 
tell them about that.  
        MR. BROOKS.  That's correct.  
        CHAIRMAN BARTON.  Now, for probably the third or fourth 
time, why not?  
        MR. BROOKS.  I'm choosing my words carefully, and we can 
expand on this in the closed session.  The Department has treated 
these intrusions once they happen as counterintelligence issues.  
The Department has a fragmented counterintelligence organization 
which it has submitted legislation to correct.  It appears that each 
side of that organization assumed that the other side had made the 
appropriate notification to the Deputy Secretary.  
        CHAIRMAN BARTON.  That's hogwash.  You report directly--
        MR. BROOKS.  Correct.  
        CHAIRMAN BARTON. --to the Secretary.  You meet with him or 
the Deputy every day.  You are the number one manager in the 
Department for these issues.  You had a major breach of your own 
security in your own--I mean, I don't know how much we are 
supposed to say in public about this, and yet you didn't inform the 
Secretary.  To say that somebody else is responsible begs the 
intelligence of this committee.  
        I mean, I don't know what to say other than it will be my 
strong recommendation after I have had a consultation with the 
Ranking Member Mr. Dingell that you be removed from your 
office as expeditiously as possible.  And I mean like 5:00 o'clock 
this afternoon if it's possible.  
        I don't see how you could meet with the Secretary every day 
for the last 7 or 8 months and not inform him of a serious, serious 
breach of security.  
        I'm going to ask you another question.  Do you think the 
President of the United States knows?  How would he know if you 
haven't told the Secretary?  
        MR. BROOKS.  The Secretary was aware of the incident, but not 
of the specific content.  
        CHAIRMAN BARTON.  The Secretary told me personally, 
personally, that he didn't know about this until 2 or 3 days ago.  
        MR. BROOKS.  That's my understanding as well.  
        CHAIRMAN BARTON.  We're going to go into closed session.  I 
don't know how we can function in a democracy if those 
responsible as appointed by the President of the United States 
don't do their duty to report what's under their responsibility to the 
Presidential appointees that they are supposed to report to.  I don't 
know how we function.  
        If I were you, sir, I would strongly consider your resignation 
being tendered to the President and Secretary of Energy today.  
Again, I haven't spoken yet directly with Mr. Dingell, so my 
official act, I am not sure what official--I am not going to do 
anything that he and I are not together on, but I think it's 
unconscionable that we have been operating since September with 
a security problem of this magnitude, and those responsible for 
protecting the integrity of the United States of America at the 
highest level haven't been notified, because if your explanation is 
to be believed, there was some sort of a mixup, and you weren't 
sure who was supposed to do it.  
        You should have at least notified the Secretary that somebody--
what you knew, and then you should have worked to clear up any 
bureaucratic problems with these other officials.  
        MR. BROOKS.  Yes, sir, I obviously should have done that.  I 
thought he had been notified because of this confusion I referred 
to, and obviously I was wrong.  I should have made sure he knew it 
himself as we gained the information which came to us over time.  
        CHAIRMAN BARTON.  Mr. Garman, you are the Under 
Secretary.  Do you have any direct report on this, or are you out of 
the chain of command on this one?  
        MR. GARMAN.  I am out of the chain on this incident, and I 
would offer this--
        CHAIRMAN BARTON.  When did you find out about it?  
        MR. GARMAN.  Two days ago.  But having said that, let me add 
that I knew and the Secretary knew and a lot of people in this room 
knew that the Department faces the same endemic problem that 
every agency in the Government faces, and that is we are under 
attack in the cyber world on a daily basis, and that these attacks--
        CHAIRMAN BARTON.  Do you think the way to prevent future 
attacks is for somebody like Mr. Brooks to not inform the 
appropriate Presidentially appointed officials in the Department of 
Energy when an attack has been successful?  
        MR. GARMAN.  I am not going to get drawn into that, 
Mr. Chairman.  
        CHAIRMAN BARTON.  Your position is stick your head in the 
sand, don't worry about it.  That's what you just said.  
        MR. GARMAN.  No, sir.  Let me be clear about this.  I think one 
of the other elements that has not been vetted in this hearing is the 
change that is underway at the Department.  By your line of 
questioning of Mr. Pyke, and I don't want anybody to leave this 
room with the impression, or the public, in the public session of 
this hearing, that the responsibility for cyber security rests on Mr. 
Pyke's shoulders alone.  What we are doing is transitioning and 
making it crystal clear to every program manager, every office 
director and every under secretary that they are responsible.  It is a 
line management responsibility for cyber security.  
        I would argue from my vantage point that this has not always 
been clear inside the Department of Energy, and that when I was a 
lower-level--
        CHAIRMAN BARTON.  But is the answer to not report when 
there is a breach?  If something were to happen within your 
purview at the Department of Energy, you have jurisdiction or 
management responsibility for the National Laboratories, or some 
of them, if there were a security breach of this magnitude at 
Hanford, would you not report it to the Secretary of Energy if you 
knew?  
        MR. GARMAN.  Sir, there is still, and let me--there is much I do 
not know about this incident. 
        CHAIRMAN BARTON.  I'm not asking what you know right now, 
I'm asking just fundamental.  If I am responsible for this 
committee, for the management of this committee as Chairman, 
and I know that something bad happens, one of my staffers 
embezzles money, somebody does something that's illegal, I do 
something about it and report it to the Speaker.  I don't just stick 
my head in the sand.  
        MR. GARMAN.  No, sir.  That's not what I am suggesting.  
        CHAIRMAN BARTON.  I am appalled that nobody seems too 
concerned about this but the Members of Congress.  I mean, it's 
just another day at the office, I guess; luckily only 1,500 were 
stolen.  
        Mr. Chairman, we're going to be in Executive Session here 
quickly, I assume.  
        MR. WHITFIELD.  Yes, sir, Mr. Chairman.  As soon as you 
finish your line of questioning.  
        CHAIRMAN BARTON.  I just want to reinforce, Mr. Brooks, I am 
going to recommend, subject to Mr. Dingell, that you be removed.  
I think you would do the country a service if you resigned before 
you have to be removed.  You have no credibility with me; none.  
With that, I yield back.  
        MR. WHITFIELD.  The Chair would move at this time pursuant 
to clause 2(g) of rule 11 of the rules of the House the remainder of 
this hearing will be conducted in Executive Session to protect the 
information that might endanger national security.  
        Is there any discussion on the motion?  If there is no 
discussion, pursuant to the rule, a recorded vote is ordered.  Those 
who favor, say aye.  
        Those opposed, nay.  
        Ayes appear to have it.  The ayes have it, and the motion is 
agreed to.  
        We will reconvene in just a few minutes in Room 2218, and 
that portion of our hearing will be closed to the public and open 
only to our witnesses, the Members and staff to such Members, 
and witnesses who have appropriate clearances.  
        The subcommittee will recess.  
        [Whereupon, at 1:06 p.m., the committee proceeded in closed 
session.] 



RESPONSE FOR THE RECORD OF THOMAS N. PYKE, JR., CHIEF 
INFORMATION OFFICER, U.S. DEPARTMENT OF ENERGY

QUESTIONS FROM REPRESENTATIVE BLACKBURN  
SUBMITTED TO MR.  PYKE

Q1.	Has your office examined security systems that other 
countries use to protect critical information systems?  If 
yes, how could we apply these systems to our networks?  

A1.	The Department of Energy relies on cyber security 
guidance issued by the National Institute of Science and 
Technology, which we are informed, includes the results of 
international collaboration by NIST through which best 
practices internationally are factored into NIST's guidance, 
which, in turn is applied to protect DOE systems and data.


Q2.	In the hearings on the DATA bill, I discussed the 
practicality of the PGP program that was very effective, 
efficient, and freely distributed during the 1990s.   Can this 
program or a similar one be used for password protection 
with DOE's systems?

A2.	DOE uses several encryption techniques to protect 
passwords stored within DOE IT systems, consistent with 
NIST guidance.  DOE also uses commercial encryption 
software to encrypt some emails and their attachments and, 
increasingly, to encrypt some files stored on laptop and 
other computers.  DOE uses Pretty Good Privacy (PGP) as 
well to ensure the integrity of some information when it is 
stored or transmitted.


Q3.	Although DOE has not inventoried all their information 
systems, can you give this committee an approximate 
number of types of existing systems?

A3.	The Department's Program Offices report having a total of 
827 information systems, of which 403 systems are 
classified systems.


Q4.	Does any DOE facility have their computer system 
installed with EMP protection?

A4.	The Department has no computer systems installed with 
EMP protection at this time.  


RESPONSE FOR THE RECORD OF GLENN S. PODONSKY, DIRECTOR, 
OFFICE OF SECURITY AND SAFETY PERFORMANCE ASSESSMENT, 
U.S. DEPARTMENT OF ENERGY

QUESTIONS FROM REPRESENTATIVE BLACKBURN 
SUBMITTED TO MR. PODONSKY

Q1.	How often do the different departments within DOE 
talk/work together on Cyber Security?

A1.	The Office of Security and Safety Performance Assurance 
(SSA) provides comprehensive information and analysis 
regarding the effectiveness, vulnerabilities, and trends of 
DOE cyber security programs, primarily through its Office 
of Cyber Security Evaluations, within the Office of 
Independent Oversight.  In so doing, SSA regularly works 
with the other programs within DOE on cyber security 
issues on a near continuous basis. In addition to 
participating in the Cyber Security Working Group 
(CSWG) at both the principals and guidance levels, the 
Office of Cyber Security Evaluations has daily contact with 
key OCIO cyber security staff members to support a 
number of initiatives, ranging from reviewing proposed 
policy and guidance to participating in reviews of technical 
proposals.  In some instances, where SSA has unique 
technical capabilities, the OCIO has requested assistance in 
evaluating the effectiveness of network management tools 
associated with such matters as patch management, 
automated log reviews, and host based intrusion prevention 
systems. In these cases SSA has been able to support the 
OCIO without compromising its independent oversight 
role.  With respect to the other program offices, the Office 
of Cyber Security Evaluations has routine contact with 
cyber security staff personnel due to the nature of planning, 
conducting, and reporting announced and unannounced 
inspections, Site Assistance Visits (SAVs), and other 
special reviews. Numerous other less formal contacts occur 
weekly with respect to requests for information, sharing of 
ideas and passing on of lessons learned.  In carrying out its 
inspection role, SSA personnel also have routine contact 
with a wide variety of field personnel which enables 
sharing of important information.

The DOE CIO frequently meets with the Secretary and the 
Deputy Secretary and other senior management to discuss 
the Department's cyber security program and steps being 
taken to maintain a sound defense-in-depth risk managed 
posture for protecting the Department's information and 
computing systems.  The CIO chairs the Cyber Security 
Executive Steering Committee, the members of which 
include the Under Secretaries and the Director of SSA.  
The CIO also has regular meetings with the Directors of the 
Office of Intelligence and SSA.

The cyber security staff in the DOE OCIO has routine and 
frequent interactions with the cyber security staff of each of 
the Under Secretary organizations, the Power Marketing 
Administrations, the Energy Information Administration, 
and elements of the Office of Intelligence.  The OCIO 
cyber security staff also has routine interactions with 
representatives of the DOE laboratories and production 
facilities through the Cyber Security Working Group 
(CSWG).


Q2.	How long will it be before the revitalization process is 
finished? How much will it cost to finish it?  
A2.	The DOE CIO reports that the implementation of the 
Department's Cyber Security Revitalization Plan is well 
underway, and much will be accomplished in FY 2006.  
Most of the longer term actions will have been substantially 
achieved by the end of FY 2007, although improving 
DOE's cyber security posture is a long term, continuing 
effort.  The Department is covering the cost of 
revitalization through the current cyber security activities 
and funding embedded within each IT investment 
department-wide.  These costs are estimated to be $295 
million in FY 2007 as documented in the BY 2007 DOE 
Exhibit 53 IT Portfolio report.


Q3.	How long did it take to do the Cyber Security Project Team 
Summary Report? How much of this report has been put 
into action? What is your timeline to address the concerns 
in the report?

A3.	SSA was directed by the Deputy Secretary of Energy to 
lead a team to develop a plan of action to remedy existing 
unclassified cyber security problems throughout DOE on 
October 5, 2005.  The Cyber Security Project Team (CSPT) 
was then formed with members drawn from SSA, the 
Office of the Chief Information Officer (OCIO), the 
National Nuclear Security Administration (NNSA), and the 
Office of the Undersecretary for Energy, Science, and 
Environment (ESE).  The CSPT delivered the Summary 
report on November 7, 2005. On November 25, 2005, the 
Deputy Secretary of Energy issued a memorandum 
concurring with the recommendations and directing the 
development of implementation plans to address them.

The recommendations identified in the CSPT have been 
integrated into the Cyber Security Revitalization Plan, 
approved by the Deputy Secretary on March 6, 2006.  The 
recommendations are being addressed in the guidance 
being issued as part of the revitalization effort and in the 
cyber security architecture and strategic plans being 
developed by the department-wide team participating in the 
development and deployment of the revitalization plan.  
The initial revitalization plan forecast completion of the 
policy, guidance, architecture elements within 12 months.  
However, the Department is working to accelerate this 
development and deployment.  Many of the DOE sites have 
adopted many of the recommendations as best practices and 
have begun implementing them in a manner consistent with 
the revitalization plan. 



RESPONSE FOR THE RECORD OF HON. GREGORY FRIEDMAN, 
INSPECTOR GENERAL, U.S. DEPARTMENT OF ENERGY

RESPONSE FROM THE DEPARTMENT OF ENERGY 
INSPECTOR GENERAL TO CONGRESSWOMAN 
MARSHA BLACKBURN

Question: You said that GAO was looking at the Oak Ridge Y-
12 plant. Can you provide me an update on the evaluation of 
its safety systems to my office?

After speaking with Rodney Bacigalupo, a member of your staff, it 
was clarified that you were seeking an update on the Office of 
Inspector General's (OIG) 2006 Federal Information Systems 
Management Act evaluation, which includes a review of the Y-12 
facility. The OIG's review is ongoing and we expect to complete 
our work in mid-September 2006. Following its completion, we 
will furnish you with a copy of our report and, if desired, can brief 
you or your staff on the results of our work at Y-12.

</pre></body></html>
